<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: WATER RESOURCES PROJECTS AND POLICY, PART 1</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: WATER RESOURCES 
                      PROJECTS AND POLICY, PART 1

=======================================================================

                                (115-41)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation                            
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-053 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                             
 

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
JEFF DENHAM, California              JOHN GARAMENDI, California
THOMAS MASSIE, Kentucky              HENRY C. ``HANK'' JOHNSON, Jr., 
MARK MEADOWS, North Carolina         Georgia
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
RODNEY DAVIS, Illinois               RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
ROB WOODALL, Georgia                 SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut, 
JOHN KATKO, New York                 Vice Ranking Member
BRIAN BABIN, Texas                   LOIS FRANKEL, Florida
GARRET GRAVES, Louisiana             CHERI BUSTOS, Illinois
BARBARA COMSTOCK, Virginia           JARED HUFFMAN, California
DAVID ROUZER, North Carolina         JULIA BROWNLEY, California
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           DONALD M. PAYNE, Jr., New Jersey
DOUG LaMALFA, California             ALAN S. LOWENTHAL, California
BRUCE WESTERMAN, Arkansas            BRENDA L. LAWRENCE, Michigan
LLOYD SMUCKER, Pennsylvania          MARK DeSAULNIER, California
PAUL MITCHELL, Michigan              STACEY E. PLASKETT, Virgin Islands
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  
            Subcommittee on Water Resources and Environment

                   GARRET GRAVES, Louisiana, Chairman

ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      LOIS FRANKEL, Florida
DANIEL WEBSTER, Florida              FREDERICA S. WILSON, Florida
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
RODNEY DAVIS, Illinois               ALAN S. LOWENTHAL, California
MARK SANFORD, South Carolina         EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut
DAVID ROUZER, North Carolina         CHERI BUSTOS, Illinois
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           BRENDA L. LAWRENCE, Michigan
DOUG LaMALFA, California             PETER A. DeFAZIO, Oregon (Ex 
A. DREW FERGUSON IV, Georgia         Officio)
BRIAN J. MAST, Florida, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. R.D. James, Assistant Secretary of the Army for Civil Works, 
  Office of the Assistant Secretary of the Army (Civil Works)....     7
Lieutenant General Todd T. Semonite, Commanding General and Chief 
  of Engineers, U.S. Army Corps of Engineers.....................     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. R.D. James and Lieutenant General Todd T. Semonite, joint 
  statement......................................................    49

                       SUBMISSIONS FOR THE RECORD

Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, submission of the following:

    Letter of March 13, 2018, from American Sportfishing 
      Association, National Wildlife Federation, Theodore 
      Roosevelt Conservation Partnership, et al., to Hon. Bill 
      Shuster, Chairman, and Hon. Peter A. DeFazio, Ranking 
      Member, Committee on Transportation and Infrastructure.....    54
    Letter of March 12, 2018, from Julie Hill-Gabriel, Vice 
      President of Water, National Audubon Society, to Hon. Bill 
      Shuster, Chairman, and Hon. Peter A. DeFazio, Ranking 
      Member, Committee on Transportation and Infrastructure.....    58
Executive summary from report, ``The Ohio River Basin: 
  Formulating Climate Change Mitigation/Adaptation Strategies 
  Through Regional Collaboration with the ORB Alliance,'' May 
  2017, by R.G. Drum et al., Civil Works Technical Report, CWTS 
  2017-01, U.S. Army Corps of Engineers, Institute for Water 
  Resources; submitted by Hon. Alan S. Lowenthal, a 
  Representative in Congress from the State of California........    61
Questions for the record for Lieutenant General Todd T. Semonite, 
  Commanding General and Chief of Engineers, U.S. Army Corps of 
  Engineers, from the following Representatives:

    Hon. Garret Graves of Louisiana..............................    63
    Hon. Grace F. Napolitano of California.......................    64
    Hon. David Rouzer of North Carolina..........................    64
    Hon. Peter A. DeFazio of Oregon..............................    65
    Hon. Eleanor Holmes Norton of the District of Columbia.......    66
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
  BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: WATER RESOURCES 
                      PROJECTS AND POLICY, PART 1

                              ----------                              


                        THURSDAY, MARCH 15, 2018

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room 2167 Rayburn House Office Building, Hon. Garret Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Louisiana. The subcommittee will come to 
order. Without objection, the Chair is authorized to declare 
recess at any time.
    Good morning, and thank you for being here. I ask unanimous 
consent that Members not on the subcommittee be permitted to 
sit with the subcommittee at today's hearing and ask questions.
    Without objection, so ordered.
    I would like to welcome everyone to the hearing today: 
``Building a 21st-Century Infrastructure for America: Water 
Resources Projects and Policy.''
    The Corps of Engineers constructs projects critical to the 
Nation for the purposes of navigation, flood control, 
environmental restoration, shoreline protection, hydroelectric 
power, recreation, restoration and enhancement, and fish and 
wildlife mitigation, and other purposes. Today we will review 
six U.S. Army Corps of Engineers project Chief's Reports that 
have been delivered to Congress since the WIIN [Water 
Infrastructure Improvements for the Nation] Act, which included 
the Water Resources Development Act of 2016.
    Additionally, the Corps of Engineers delivered to Congress 
the Post-Authorization Change Report on the Savannah Harbor 
deepening project, and I had the chance to go out there and go 
see that project with Congressman Buddy Carter, the local non-
Federal sponsors, and impressive work being done out there, and 
I think certainly of national importance there.
    But the six Chief's Reports and one Post-Authorization 
Change Report are the result of a pretty robust planning 
process. These projects are proposed by the non-Federal 
interests in cooperation and consultation with the Corps of 
Engineers. And all of these reports, while tailored to meet the 
locally developed needs, must justify national economic and 
environmental benefits.
    Since the enactment of the WIIN Act, the Corps has also 
transmitted two annual reports on future water resources 
development, as required by section 7001 of the Water Resources 
Reform and Development Act of 2014.
    The annual reports identify completed feasibility reports, 
proposed feasibility reports, and proposed modifications to 
existing authorized projects or studies for potential future 
authorization by the Congress, and are based upon annual 
requests from the non-Federal sponsors.
    Today we will also examine the Corps' policy by which these 
projects are implemented.
    As you know, our Nation's water resource infrastructure is 
underfunded and in need of updating. Further, our project 
development and delivery process is outdated and antiquated, 
and needs innovation and efficiency. Our ports struggle to 
maintain their navigation channels at their fully authorized 
depths, directly impacting our global competitiveness. As we 
have seen growth in our economy as a result of tax legislation 
and the reduction of unemployment in this Nation, that puts 
additional stress on our infrastructure, whether it be our 
ports, roads, and waterways, or it is on our resilient 
communities and development.
    The annual reports identify--excuse me, I jumped. Our 
ports--it is not just our navigation system that needs to be 
upgraded, but also our levees and dam systems, which are on 
average over 50 years old.
    Right now there is a backlog of 1,000 water resource 
projects authorized by the Congress totaling nearly $100 
billion in need. With an annual appropriation for construction 
through the Corps of Engineers somewhere between $1 and $2 
billion, it doesn't take a math whiz to recognize that we 
simply will never--will never--complete the authorized 
projects, and never catch up. Therefore, it is critical that 
the Corps of Engineers work as efficiently as possible.
    I want to thank you for including in your testimony a 
discussion of the President's infrastructure legislative 
principles that are directly applicable to the Civil Works 
program. And additionally, I look forward to discussing the 
next steps taken by the Corps, as well as internal efforts to 
drive efficacy and efficiency at all levels of the 
organization.
    I will say it again, the status quo is simply unacceptable.
    In the end, we have a lot of work to do in order to ensure 
that our water resources system can sustain the competitiveness 
of the American economy and protect our national security.
    I will now recognize the ranking member, Mrs. Napolitano, 
for an opening statement.
    Mrs. Napolitano. Thank you very much, Mr. Chair, for 
holding this important meeting and hearing on the condition of 
our Nation's waterway resources infrastructure.
    I also want to extend my warm welcome to both the new 
Assistant Secretary of the Army for Civil Works, Mr. James, and 
the Chief of Engineers here, General Semonite. We have had 
conversations before.
    But today's hearing presents a good opportunity to 
highlight the stark differences between the Trump 
administration and the Democratic caucus' better deal on 
investment in our Nation's infrastructure, especially as is 
water-related infrastructure. These differences were laid bare 
just 2 weeks ago, when the President released both his budget 
request for the year 2019, as well as the much-hyped 
infrastructure proposal.
    Judging from the almost universal lukewarm reaction he has 
received, it is clear the President's priorities on new 
infrastructure are not focused on America's future or ensuring 
that our citizens, our communities, and our businesses have 
access to infrastructure that is second to none in preparation 
for everything including commerce.
    No, it seems that the President's priorities are what they 
always have seemed to be: how best for the Wall Street friends 
to profit off American people and leave behind a weaker, more 
expensive, less sustainable future for our Nation.
    While the President talks big about trillions in 
investment, it is really just a scam. What little Federal money 
may be actually in this proposal, his proposal simply comes 
from robbing other existing infrastructure investment programs, 
such as a $1 billion cut to the construction budget of the Army 
Corps of Engineers.
    Further, the fine print of his proposal calls for Americans 
to dig deeper into their own pockets to pay again and again for 
essential public services such as safe and efficient 
transportation and transit, essentially water and wastewater 
services, and the critical related water infrastructure 
projects provided by the Army Corps of Engineers.
    Over and over again, his plan is out of step with proud 
American-made infrastructure traditions, calling for new tolls 
and fees, greater cost, and less decisionmaking authority for 
States and local governments, and weakened Federal protections.
    Investing in our infrastructure, including our water-
related infrastructure, should be an opportunity to improve the 
health of our communities, our economy, and financial stability 
of our American families, not the bottom line of Wall Street 
investors. It should reward American manufacturers, American 
farmers, and American workers, not companies seeking to 
privatize public services and seeking to profit on every 
highway mile or river mile traveled, or a gallon of water 
consumed by American families.
    The House Democratic caucus has such a plan. It is called A 
Better Deal to Renew America. This bold, comprehensive plan 
calls for a historic $1 trillion Federal investment to rebuild 
our crumbling infrastructure and create more than 60 million 
American jobs. The Better Deal will invest in American iron and 
steel and new American-made green infrastructure materials to 
support good-paying jobs and ensure opportunities for small 
business owners. It will ensure projects advance quickly, while 
maintaining key environmental protections and labor standards.
    Mr. Chairman, like you I am excited to begin on a new Water 
Resources Development Act. Yet this committee has been 
extremely successful in getting our work done, thanks to Mr. 
Shuster, and authorizing a next generation of Corps projects to 
benefit our communities and our Nation. However, I share the 
frustration of many of our local sponsors when they realize how 
little work they put into authorizing a Corps--means if the 
funding to build that project does not easily follow. That is 
why we need a bold vision on how to make those infrastructure 
investments and see that the hard work of the local sponsor and 
the Corps become reality.
    The President's vision calls for a diminished role for the 
Corps in meeting our water resources future, a vision that 
calls for allowing Wall Street buddies to profit off hard-
working American families and taxpayers, a vision that calls 
for increased privatization of public services, and the actual 
cutting and gutting of critical worker and environmental 
protections.
    Mr. Chairman, I urge this Congress to reject the 
President's vision and to work with our side on the aisle to 
make real, substantial investments on our water infrastructure. 
We stand ready to work on a better infrastructure deal that 
benefits all Americans.
    And again, I want to welcome our witnesses here today to 
bring the discussion, and yield back the balance of my time.
    Mr. Graves of Louisiana. Thank you. I want to thank the 
ranking member. I also want to remind her that the 
appropriations requests are in line with those of the previous 
administration.
    With that, I yield to the chairman of the full committee, 
Mr. Shuster, for 5 minutes.
    Mr. Shuster. Thank you very much, Chairman Graves and 
Ranking Member Napolitano, for having this hearing today.
    Welcome, Secretary James. This is your first time in front 
of this committee, so welcome.
    And General Semonite, good to see you. You have been here a 
few times before. We appreciate you making the trip up here.
    You know, this hearing is a critical step in the process to 
develop and then move a water resources bill. And everybody 
knows that efficient water infrastructure is vital to our 
global competitiveness.
    So again, I am pleased that we are on track to pass another 
WRDA [Water Resources Development Act] bill, get back on the 
track we got off of several years ago to every Congress 
authorize these projects. Again, it enables Congress to carry 
out its clear Federal role in building the Nation's 
infrastructure. So again, I am very, very pleased we are on our 
way to another water resources bill. And I appreciate Mrs. 
Napolitano for thanking me, but it is really the committee 
working together is how we get these things done. And so I 
thank everybody on the committee that rolls up their sleeves, 
and we figure out how to move a bill forward.
    Again, today is part of our transparent process that we 
established in 2004, again, to make sure that projects and 
related policies are in place and moving forward for the next 
bill.
    Again, as the chairman mentioned, we need to have a more 
efficient project delivery system in place, and I know that the 
folks at the Corps have been working hard on it, but we need to 
do a better job if we are going to build a 21st-century 
infrastructure that we so desperately need to do.
    So again, thank you, Secretary James, for being here, 
welcome--and General.
    I yield back.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I want to 
yield opening statement time to the ranking member, Mr. 
DeFazio.
    Mr. DeFazio. I thank the chairman. I want to welcome 
Secretary James here, his first appearance before the 
committee.
    Obviously, you bring a wealth and knowledge regarding our 
inland waterways, and we will also be talking a little bit 
about some coastal port issues, too. But I appreciate your 
being here.
    And General, you know, thank you again for your service.
    You know, the exchange between the subcommittee chair and 
the subcommittee ranking member, where the subcommittee chair 
reminded Mrs. Napolitano that the appropriations were basically 
in synch with the previous administration, well, I didn't like 
what the previous administration did. And, unfortunately, this 
administration is continuing the same practice. That is: we are 
assessing a tax on the American people.
    Every time you buy an imported good, every single thing you 
buy, there is a tiny ad valorem tax added to it. And this was a 
creation of Ronald Reagan, supposedly an icon of the Republican 
Party. He said, ``We need stable funding to deal with our port 
issues,'' so the tax was established.
    And, unfortunately, yes, the Obama administration 
underspent the tax for phony baloney purposes in the budget, 
just as this administration has proposed. Basically, we collect 
the tax and part of the money gets diverted into a theoretical 
trust fund over there somewhere in the Treasury that we never 
spend. It will be about $10 billion of diverted taxes if this 
President's budget is adopted and if we appropriated these 
levels.
    So we are continuing the mistakes of the past. Obama 
never--well, he did pretend that he was going to do 
infrastructure and went around leaning on a shovel a lot, but 
he never really did an investment in infrastructure. That is 
why I opposed his Recovery Act. Four percent went to 
infrastructure. Four percent of $800 billion.
    So let's not continue the mistakes of the past and defend 
this administration for doing the same boneheaded thing. In 
fact, the same dishonest thing, which is collecting a tax from 
the American people to meet, you know, established and unmet 
needs for our ports, and divert the money over into some other 
program or illusory deficit reduction. It is indefensible.
    If we are going to collect the--well, I suppose they are a 
little more honest. They want to reduce the tax, so then 
permanently reduce funding for our ports.
    It is great we do WRDA bills every 2 years. And in the last 
couple of bills we have added $40 billion to the unmet, 
unfunded, authorized backlog of the Corps. So the Corps now has 
a $96 billion authorized, unfunded pile of projects sitting out 
there. About half of them are critical projects, the others 
are, you know--they have different levels of support or need.
    Our harbors, on a daily basis, our 59 largest ports are 
operating somewhere around 40 percent of authorized depths. We 
don't have the money to do the dredging. I have got harbors on 
the south coast of my district. Despite the small port set-
aside, they are not going to get dredged this year. We don't 
have the money. We don't have the money. Well, we do have the 
money, we are just stealing it from the American people and 
dumping it somewhere else, maybe into the wall with Mexico. I 
don't know where it is going.
    But it is time to stop playing this game. In the last WRDA 
bill I offered an amendment out of this committee to have a 
real trust fund, and it was the only thing taken out of the 
bill by the Speaker at the behest of now-disgraced former 
Chairman Price of the Committee on the Budget, who wanted to 
put the money somewhere else. Let's stop playing this game.
    We have these needs, we have got to meet them. And I hope 
the Secretary can help us be an advocate for that. We have one 
honest guy who lasted a few months in the Bush administration, 
Mike Parker. And he came in and I said, ``Is this budget 
adequate to meet the needs of the Corps of Engineers?'' He said 
no. The next week he had to get time with his family and leave 
his job because he was honest.
    We need some advocacy, we need to fight for this money. And 
hopefully this committee will join in that. Thank you, Mr. 
Chairman.
    Mr. Graves of Louisiana. Thank you, Mr. DeFazio. How many 
other people have you caused to lose their jobs?
    [Laughter.]
    Mrs. Napolitano. Whatever it takes.
    Mr. Graves of Louisiana. I said how many other people have 
you caused to lose their jobs?
    Look, I--very quickly, I do want to say that, Mr. DeFazio, 
I appreciate your continuing efforts to bring attention to this 
issue. I think you know that I agree with you 100 percent on 
this, and the problem is not within this committee. If we were 
to charge fees under the auspices of using it for a particular 
purpose and then spending it elsewhere in the private sector, 
that is called embezzling. In the Federal Government that is 
called budgeting. And it is ridiculous. So I certainly share 
your concerns.
    Before I begin introducing our witnesses this morning I 
also wanted to dispense with some unanimous consent requests.
    I ask unanimous consent that the record remain open 15 days 
for additional comments and information submitted by Members or 
witnesses being put in the record of today's hearing.
    Without objection, so ordered.
    I ask unanimous consent the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing.
    Without objection, so ordered.
    I ask unanimous consent that letters from a whole bunch of 
different groups, including American Sportfishing Association, 
National Wildlife Federation, Theodore Roosevelt Conservation 
Partnership, and many, many others be submitted for the record.
    And also I ask unanimous consent the correspondence from 
the National Audubon Society be included in the record of the 
hearing.
    Without objection, so ordered.

        [The letters from the organizations referenced above are on 
        pages 54-60.]

    Mr. Graves of Louisiana. Thank you, and I want to welcome 
our newly confirmed Assistant Secretary of the Army for Civil 
Works, Mr. R.D. James, who is with us for the first time today. 
And we also welcome the Commanding General and Chief of 
Engineers, Lieutenant General Todd Semonite.
    Mr. Secretary, I appreciate you being here. You and I have 
had the opportunity to work together for about 20 years. And we 
have not always seen eye to eye on issues, but something that I 
do think we see eye to eye on right now is that we have 
fundamental changes within the Corps of Engineers that are 
needed, and in terms of improving the efficiency of project 
development and delivery. And I look forward to working with 
you on that.
    And, with that, you are recognized for 5 minutes.

 TESTIMONY OF HON. R.D. JAMES, ASSISTANT SECRETARY OF THE ARMY 
FOR CIVIL WORKS, OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY 
    (CIVIL WORKS); AND LIEUTENANT GENERAL TODD T. SEMONITE, 
 COMMANDING GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF 
                           ENGINEERS

    Mr. James. Thank you, Mr. Chairman, other members of the 
committee. First, I apologize that I didn't get around the dais 
to meet all of you and say good morning to you. But due to the 
hour, due to the number of you, I didn't make it around to you.
    Chairman Graves, Ranking Member Napolitano, and 
distinguished members of the subcommittee, I am honored to 
testify before your committee today, along with General 
Semonite, Chief of Engineers. We will talk on the subject of 
America's water resources infrastructure.
    I was recently sworn in as Assistant Secretary of the Army 
for Civil Works, and I look forward to working with this 
subcommittee and the Congress to address the Nation's water 
resource infrastructure. And let me state at this point that I 
intend to visit with each one of this committee's members in 
your office to get a clear understanding of what you think, 
what you think we ought to be doing, and get a feeling for this 
committee. And I commit to doing that as soon as I can get on 
your schedules.
    The President's fiscal year 2019 budget and infrastructure 
proposal recognizes the current paradigm for investing in water 
resources development is not sustainable and can deter, rather 
than enable, local communities, States, and private sector from 
making important investments on their own, even when they are 
primary beneficiaries.
    The administration's infrastructure proposal and other 
reforms in the budget are designed to enable local 
decisionmaking by the local communities and State Governors 
since they are the ones who best know what infrastructure 
investments are needed.
    The President's infrastructure proposals contained 
legislative principles that are directly applicable to the 
Corps' Civil Works responsibilities. The six principles are 
designed to remove barriers and expedite the delivery of 
infrastructure projects, combine new and existing revenue 
streams to enable greater efficiencies for our Nation's inland 
waterways, encourage innovation by providing incentives in the 
forms of grants and low-cost loans to non-Federal entities, 
streamline the Corps' section 404/10 and 408 programs, and 
authorize Federal divestiture of assets that would be better 
managed by the State or private entities.
    And I would say that the Corps has already begun a few 
months ago its own analysis of its own progress, its own 
procedures, and how to get more bang for the buck. I will also 
say that I have initiated a task force from the Secretary's 
office that will be looking into the Corps, as well as some of 
the processes of other agencies that may hamper the moving 
forward of our critical project processes and get more bang for 
the buck.
    My office is working with the Corps and other Federal 
agencies to streamline the Federal permitting and oversight of 
infrastructure projects through implementation of Fixing 
America's Surface Transportation Act, FAST-41, and through 
various recently signed Executive orders.
    In addition, we are continuing to work together to identify 
and implement organizational efficiency opportunities, 
regulations, and procedures that will improve the Corps' 
ability to move dirt and get to results.
    Regardless of where the Corps of Engineers is located, we 
agree there is need to address internal policies, regulations, 
processes, and cultural impediments to ensure that the Corps 
remains relevant into our future. We want to be value-added in 
addressing the water resource needs of this Nation.
    I look forward to working with each of you and other 
members of the subcommittee to improve ways that we address the 
Nation's infrastructure needs.
    Let me say to you when I took this job I had two things in 
mind of trying to do, and that was to quit focusing on the 
process and get to results. The other was move dirt on the 
ground. And I want to work with each of you on this committee 
to try to reach that end.
    Thank you very much. I look forward to your questions.
    Mr. Graves of Louisiana. I ask unanimous consent that the 
Assistant Secretary get an additional 2 minutes for his 
southern drawl.
    [Laughter.]
    Mr. Graves of Louisiana. With that, we recognize the Chief 
of Engineers, General Semonite, for 5 minutes.
    General Semonite. Chairman Shuster, Ranking Member DeFazio, 
Chairman Graves, Ranking Member Napolitano, and distinguished 
members of the subcommittee, thank you for the opportunity to 
testify today. I am glad to have Secretary James on the Civil 
Works team, and I look forward to working with him in 
addressing water resource challenges across the Nation.
    I have been in command of the Corps for close to 2 years, 
and I want to briefly update you on where we are going. As I 
said last year, the Corps' credibility is measured on our 
ability to deliver results that are on time, on budget, and of 
exceptional quality.
    Since Congress first authorized our navigation mission in 
1824, the Corps has worked hard to develop and implement 
solutions to the Nation's water resource challenges. We are 
able to do this because we have a world-class workforce of 
talented and dedicated professionals who are absolutely 
passionate about what we do. None of our work can be done 
alone. It is with the full participation and hard work of many 
others.
    We appreciate value and depend upon the support of the 
administration, the Congress, and all of our partners to 
succeed in our mission. I am very proud of the work that the 
Corps accomplishes, but I am equally aware that this 
organization can improve. I have been and remain committed to 
instituting changes to the Corps' delivery process in order to 
become a more efficient and effective organization.
    The Corps faces a multitude of challenges, some old and 
some new. Much of our infrastructure is well beyond the design 
life, yet the requirements have never been greater. The demands 
on the Federal budget continue to grow, and as our 
infrastructure ages we find more and more of our annual 
appropriation going to operations and maintenance activities at 
the expense of both investigations and construction 
investments.
    Today we have over $96 billion in construction 
requirements, representing the Federal share of a multitude of 
projects. We have close to 100 ongoing feasibility studies, 
which, if authorized, will simply add to the Federal budget 
requirement. Our feasibility studies are formulated with an 
assumption of efficient funding, and most all are multiple-year 
projects, but we budget on an annual basis with no assurances 
that adequate funding will be available from year to year.
    This creates uncertainty for our non-Federal sponsors, 
drives up project costs, and delays the realization of 
benefits. At the current rate, it will take over 100 years to 
address that backlog. And this is simply unacceptable.
    Together we must remove barriers to the development and 
improvement of our water resource infrastructure. We must 
encourage and incentivize alternative project financing, 
streamlining Federal procedures, and delivering projects and 
reduce unnecessary Federal oversight to facilitate timely 
delivery of projects.
    The Corps has been working on this issue with the 
administration, and was instrumental in developing 20 
legislative proposals--they are in my hand, right here--that we 
think should be part of the President's infrastructure package. 
The Corps continues to work on policy and administrative 
changes that can improve infrastructure delivery.
    Over the last year I have assembled my general officers, my 
senior executives, my colonels, and my senior leaders to look 
internally at our organization, our authorities, our policies, 
regulations, and procedures in order to identify opportunities 
for increased efficiency and effectiveness.
    The Corps is fully engaged in support of five 
administrative efforts aimed at streamlining our regulatory 
processes. The Corps is addressing topics such as implementing 
the one Federal decision that establishes discipline and 
accountability in the environmental review and permitting 
process for infrastructure projects. We are also reviewing the 
nationwide permit program to identify modifications that will 
increase the efficiency of decisionmaking. And we continue 
working with the EPA as we review the 2015 ``waters of the 
United States'' rule.
    Our goal is to simplify the process for gaining 
infrastructure permits while protecting the environment in 
accordance with the law. We are working to delegate more 
decisions to the lowest appropriate level and encouraging our 
leadership to take more prudent risk: an example out of the 
multiple improvements the Corps is implementing in our section 
408 review process. Our technical experts close to the issues 
can make decisions based on their experience, knowledge, and 
competence in a specific area.
    To put this concept to practice, we are seeking to make 
section 408 decisions at the lowest possible level, eliminate 
redundancies, identify alternative processes or authorities, 
and clarify when such permissions aren't even required. We 
believe that risk-informed or professional judgment decisions 
should be made and documented without being subject to numerous 
time-consuming reviews.
    We are looking at how we can best capture the total value 
of our projects. Most communities have a master plan that was 
developed based on an analysis to determine best value for the 
community or region. This may consider facts like life risk 
reductions, economic value, and resiliency of the community. We 
want to make sure that our reports reflect the total value of 
our projects so that we may enhance opportunities for non-
Federal investment.
    We are reviewing existing authorities that allow sponsors 
to take ownership of the project delivery process, and may help 
leverage non-Federal financing, such as section 203 and 204 
authorities provided to WRDA in 1986.
    The Corps wants to be part of this solution, not part of 
the problem. We recognize the need to address internal 
policies, regulations, processes, and cultural impediments in 
order to remain relevant into the future. We want to be value 
added to deliver solutions, whatever role we may have in that 
endeavor.
    But we can't do all these reforms in isolation. We need the 
help of OMB [Office of Management and Budget] and Congress to 
unleash the power of the Corps by acting on our numerous 
recommendations.
    Thank you, Mr. Chairman and members of the subcommittee. 
This concludes my testimony, and I look forward to answering 
questions you might have. Thank you.
    Mr. Graves of Louisiana. Thank you, General. We are going 
to go ahead and go to questions. I appreciate the testimony 
from both of you. We are going to start with the gentleman from 
Ohio and the author of the WRRDA [Water Resources Reform and 
Development Act] 2014 and WRDA 2016 bills, Mr. Gibbs.
    Mr. Gibbs. Thank you, Chairman Graves.
    Great to see you, General and Honorable James. The first 
question, many stakeholders have shared concerns with me about 
the inconsistency in the application of the 2008 mitigation 
rule, which has resulted in uncertainty and confusion in the 
section 404 permitting. This in turn has resulted in 
significant costs and delays in the Clean Water Act permitting.
    My question is do you plan to exercise your oversight 
authority with more predictability, such as issuing a national 
guidance with respect to the provisions in the rule that have 
been applied in certain districts in a manner that has led to 
the undue costs and delays?
    I guess anyone, either one of you, can try to answer that.
    Mr. James. I am sorry, sir, I thought you were talking to 
the general.
    Mr. Gibbs. Oh, I am sorry. Well, look. The question is the 
2008 mitigation rule in regard to section 404 permitting, the 
shareholders--about uncertainty and confusion. And I think you 
can exercise oversight authority to bring more predictability 
to that by issuing a national guidance.
    Go ahead, General.
    General Semonite. So, as I said, sir, we are looking at all 
of those permitting issues. Again, a lot of it goes back to 
how, over the years, some things have migrated to a higher 
level. So we have got to be able to delegate it back down to 
the level of where there is competence and capacity--both of 
those--to be able to streamline.
    The challenge you have sometimes is when you delegate back 
down, especially when you have 43 districts, sir. Then it is 
closer to the decision. But sometimes there are areas where 
somebody might make different decisions.
    So we have a process where we have a lead district to be 
able to make sure we are as consistent as possible. We are 
trying to put more information back out so that the adherence 
back into those policies can build consistency back in. I think 
it is something we want to do.
    But I think what we don't want to do is overly centralize. 
If you centralize, then what happens is, sir, is that 
obviously----
    Mr. Gibbs. I agree with that, General. But we want to make 
sure we don't have a similar situation in one district and----
    General Semonite. Exactly right.
    Mr. Gibbs [continuing]. Doing the opposite in another 
district, and that just drives people crazy.
    General Semonite. And the best thing, sir, we can do is, 
when we identify those issues, we bring the players together. 
But we also have to learn, and then we have to get that word 
back out so that everybody gets to be able to apply that the 
same way.
    Mr. Gibbs. OK, thank you. My next question, talking to Soo 
locks stakeholders informed us that the Corps is including in a 
new benefit-cost ratio calculation for the Soo locks project 
only a $2 billion--the cost to build an alternative rail system 
to transport iron ore, if there is a significant outage at the 
Poe lock.
    I also understand that the Corps' own contractor estimated 
the cost to actually build the rail connection would be closer 
to $6.5 billion.
    Why isn't the Corps including the entire cost of the 
construction of the rail capacity plus the rail operating costs 
for an average lock outage in the Soo locks project in their 
economic review?
    General Semonite. So I have been to Soo locks a couple 
months ago, sir. I think--and I am looking at this right now--
we ran a series of failure analyses on the Soo locks. We did 
about 10,000 runs of a risk failure. About 50 percent of those 
runs would require the rail. So that is where, right now--the 
way that the formula is doing is we are only apportioned 50 
percent of the cost. But that doesn't really make a lot of 
sense.
    Mr. Gibbs. Yes, that is----
    General Semonite. You can't build 50 percent of a railroad.
    So I think, as we go back in there, we want to be able to 
make sure that we are giving all these projects the absolute 
best chance of success, so when you get to make a decision you 
are able to figure out where best to put that money.
    So I think it is up to the--even myself, I am asking, is 
that the right way to do it? And if we don't have the authority 
to be able to make that decision when we come to that analysis, 
then I want to come back and make sure we are using common 
sense and maybe get the appropriate guidance to have that 
authority.
    Mr. Gibbs. Well, I am glad to hear that, because, I mean, 
it doesn't--you have got to be fair in these benefit-cost 
ratios. And if you skew the input, you are going to get a 
skewed output, right? And I think you mentioned that. And I 
think it--you know, there is other things to probably go 
through there besides iron ore.
    Mr. James. Mr. Congressman, if I may?
    Mr. Gibbs. Yes, go ahead.
    Mr. James. The Soo locks is very high on my priority list, 
and the main reason is, as I understand it--and I did not know 
this before I got up here 4 weeks ago--is that all the iron ore 
in this country comes out through that Soo locks system, and 
through the existing Poe lock.
    Mr. Gibbs. Yes, correct.
    Mr. James. I do not think we have rail capacity in that 
part of the country to get iron ore out of there. I think iron 
ore is critical to the national defense of this country, to the 
automobile, as well as other industries, and to homeland 
security.
    So the benefit-cost ratios that we have been looking at 
historically I am going to look into trying to change the 
parameters of the benefits, and try to move this project 
forward.
    Of course, as you know, we are looking at both the repair 
and extreme updating of the existing one, plus the capability 
of a new one. So I will have that on my priority list.
    Mr. Gibbs. Well, I am glad to hear that, because I have 
been pushing for this for--since I have been in Congress--
starting my eighth year--and it has just been frustrating. It 
needs to get done. It is of national economic importance for 
national security, as you say.
    And your predecessor, when I was chairman of this 
committee, I challenged her a little bit because she said they 
had to do this cost-benefit ratio, and I said to her, ``I 
think, Ms. Secretary, we could sit here in the next 15 minutes 
and do it, because it is a no-brainer.'' And so I am glad to 
hear that. That is refreshing.
    Mr. Graves of Louisiana. Mr. Gibbs, your clock actually got 
reset during the thing, so I think we are actually in excess of 
5 minutes right now.
    Mr. Gibbs. Oh, OK.
    Mr. Graves of Louisiana. As a matter of fact, it literally 
just reset in the middle, so I----
    Mr. Gibbs. All right. I yield back, then.
    [Laughter.]
    Mr. Graves of Louisiana. I am going to turn to----
    Mr. Gibbs. I thought the clock was acting funny, but I 
didn't want to mention it.
    Mr. Graves of Louisiana. I was trying to figure out what 
button you pressed to do that.
    [Laughter.]
    Mr. Graves of Louisiana. I am going to yield 5 minutes to--
--
    Mr. James. Mr. Chairman, I think the general reset it.
    Mr. Graves of Louisiana [continuing]. Mrs. Napolitano.
    Mrs. Napolitano. Mr. Chairman, there seems to be an 
emerging discussion on the merits of keeping Civil Works 
function within the Department of the Army. I and other members 
of this committee believe the Corps should retain its Civil 
Works mission, not only because of historic expertise in 
managing and balancing our Nation's water resources challenges, 
but also because this civil mission complements our national 
security, as was pointed out, and our military readiness.
    As you know, protecting our navigation corridors, 
especially during times of military conflict, is critical to 
our national security, as is ensuring the health and safety of 
our citizens, our communities from flooding and coastal storms.
    General Semonite, I would appreciate your views and the 
potential consequences of removing this function from DoD, and 
potentially breaking up Corps missions among other Federal or 
State agencies. In your view, is there an ongoing reason for 
retaining the mission within DoD?
    General Semonite. Ma'am, thanks for that question. And I 
think it probably involves a lot more than a couple-minute 
answer here.
    I think the biggest question is what is the problem we are 
trying to solve. And let's make sure we understand what is the 
end state we are trying to get to, and then how somehow do we 
address that.
    I think your very, very key point there was national 
security.
    The other thing is the Corps of Engineers works for many, 
many different capabilities in the Federal Government. Those 
capabilities are resonant in all of our different engineering 
capabilities. The service we provide, one of those, is Civil 
Works.
    Right now, though, we put 13,000 volunteers in Iraq and 
Afghanistan for national security to do critical missions for 
the Department of Defense. We put 4,000 people in Puerto Rico, 
Virgin Islands, Texas, and Florida in the last 6 months to take 
care of being FEMA's [Federal Emergency Management Agency's] 
engineer.
    So while you think you could cut Civil Works out, the rest 
of the depth of the Corps, which is really the engineering and 
construction capability, is so much more powerful back to the 
Nation.
    And I would love to have more discussion, but I know in the 
interest of time I am just going to keep it very, very short.
    Mrs. Napolitano. Thank you for the answer.
    Mr. James and Lieutenant General Semonite, my local water 
agencies, the Water Replenishment District of Southern 
California and the Los Angeles County Department of Public 
Works have been working with the Corps over 12 years on 
providing interim deviations and permanent deviation for 
additional water supply at Whittier Narrows. This is a big 
success and a great failure. We are still waiting.
    The great failure is that the local agency has spent 12 
years and $5 million of their own money working with the Corps 
on a permanent deviation. My water agencies can no longer 
contribute their time and their money to a never-ending and 
excessively bureaucratic process. They feel the Corps should 
have implemented 12 years ago, but delayed because of post-
Katrina, which is fair. And that produced effective water 
supply measures at dry dams when our dry-prone region most 
needed it.
    Now the project is delayed further, and costs have risen 
due to the new dam's safety work at the dam. And a recentU.S. 
Fish and Wildlife Service determination that millions of 
dollars in mitigation funds are needed for gnats, little old 
gnats. This all would have been avoided if the Corps had been 
committed to the project 12 years ago.
    Can you commit to us that when local water agencies are 
offering to give Corps money like WRD to work on projects that 
will address local needs, the Corps will work expeditiously on 
these projects?
    General Semonite. So, ma'am, let me answer. We are very, 
very committed to continue to look at where we can find more 
capability for water supply. You and I have talked about this, 
I have been to California, we are doing this on other dams 
right now.
    We are committed to continue to look at Whittier Narrows. 
The problem is that is a DSAC[Dam Safety Action Classification 
I] dam. So we will have our analysis done by June 2019 on how 
we are going to fix that dam. Once we do that, we then want to 
look at how can we put more water in the dam. But right now we 
are focused on the safety of the dam. But we are continuing to 
be able to get that dam hopefully fixed with the congressional 
funding by 2022.
    Mrs. Napolitano. Is that a promise, the timeline?
    General Semonite. Ma'am, it is obviously dependent on 
budget, if the money comes.
    Mrs. Napolitano. Again, the budget.
    Well, section 1304 of the WIIN Act directed the Corps to 
integrate and incorporate into the Corps dams in L.A. County 
seasonable operation for water conservation, water supply. What 
is the Corps doing to implement this provision and allow for 
more water supply and recharge opportunities at these dams?
    General Semonite. So that would be mixed back in with that 
study. We are doing both concurrently, where we could continue 
to fix the dam, but then we have got to be able to look at 
how--where is the safe zone of how much water supply can we 
keep in there so we still have the flood control piece. That is 
the big balance there.
    And we have seen areas where sometimes local people want to 
have more and more water in, but now all of the sudden you have 
a microburst on top of that flood control area, and you don't 
have enough capacity.
    Mrs. Napolitano. Well, we hope we have more water.
    Thank you, Mr. Chair.
    Mr. Graves of Louisiana. Thank you. We can go to Mr. Weber 
from Texas for 5 minutes.
    Mr. Weber. Thank you, Chairman.
    Mr. Hicks--I am sorry, this is from Fred Hicks, Gulf Coast 
Water Authority, and this is about Lake Whitney in Texas, which 
is north of our district a little bit. And this is actually for 
both of you, Mr. James and Lieutenant General Semonite.
    My constituents at the Gulf Coast Water Authority are 
responsible for providing water supply for a number of 
municipalities, industrial plants, agricultural irrigation from 
my district, and those of actually several other Members of 
Congress. This water supply comes from the Brazos River and 
from Lake Whitney, which is a Corps reservoir.
    The Gulf Coast Water Authority is currently working with 
the Army Corps to address a reallocation of some of the waters 
from Lake Whitney to better serve the 21st-century needs of our 
Greater Houston region--of course the area that I represent, as 
well as some of the other Members of Congress. This would be 
through the Corps' O&M budget, and with 100 percent of the 
necessary funding provided by the Gulf Coast Water Authority.
    Now, we just went through one heck of a flood with Harvey, 
and so we had more water than we knew what to do with. But 
there will come times we will have a drought, and we need to be 
able to reallocate some of that water from Lake Whitney, which 
has not been used to date.
    So I guess the question for the both of you is can we look 
forward to you all's cooperation and participation working with 
the Gulf Coast Water Authority? And then who should we contact 
in your office to get this set up and get this ball rolling?
    Mr. James, I will start with you.
    Mr. James. Yes, sir. I can say that water supply is a 
growing concern in the entire country, due to the heavy 
population concentrations. You know, our population as a Nation 
may not be growing, but they are concentrating in certain 
areas. That makes water supply very important.
    We have to balance that with the other authorized uses of a 
Federal project, one of them being flood control. And we have 
to look at those as individuals.
    I will tell you that--I think that the general will back 
this up--that we will be looking at this as we move forward, 
the area that you are talking about in Texas.
    Mr. Weber. Well, you are probably not--I know there is 
hundreds and hundreds, if not thousands of these, so you are 
probably not specifically, you know, knowledgeable about this 
one--and, General, you may not be, either. But I just--I needed 
the name of somebody in your office that we can get this ball 
rolling.
    General Semonite. So, sir, Colonel Zetterstrom talked to 
you a couple weeks ago, and there are four different issues you 
are tracking. So we are aware of this.
    Mr. Weber. OK.
    General Semonite. Especially when the funding is coming 
from somebody else, that really is able to take that burden 
back up to the Federal Government. So----
    Mr. Weber. So much for budget problems, as the ranking 
member pointed out.
    General Semonite. Zetterstrom is the guy. I talked to him--
--
    Mr. Weber. OK.
    General Semonite [continuing]. He sent me a note last 
night. I will make sure I follow up and tell him to come see 
you.
    Mr. Weber. Fair enough. I need to move on to, actually, a 
more sticky subject, and that is there is a critical military 
issue in my district hearkening back to a Clinton-era 
initiative referred to as the Columbia Bottomlands, Columbia 
Bottomlands. And what that--which was actually killed back then 
by then-Senator Phil Gramm and Senator Kay Bailey Hutchison.
    Well, the Obama administration tried to revive it, and 
snuck in an 11th-hour rule making the record before President 
Trump took office, and the subject matter, nationwide permit 
reissuance. All right?
    NPRs, I guess you call them, were apparently announced by 
the Corps on January 6, 2017, in the Federal Register 
announcing the reissuance of all 50 existing nationwide 
permits, NWPs, general conditions and definitions with some 
modifications done with little fanfare, little public notice, 
very short comment period, as I recall, with virtually no 
transparency in the process.
    To this date, to this day, most of my constituents don't 
even realize in Brazoria County that they have been the victims 
of ``property taking.'' The following went into effect on March 
19, 2017, and I will quote this: ``For the purpose of this 
regional condition, Columbia Bottomlands are defined as `waters 
of the United States' ''--sound familiar?--``that are dominated 
by bottomland hardwoods in the lower Brazos and San Bernard 
River regions.'' Totally unacceptable.
    Short of working with my Appropriations Committee 
colleagues to absolutely defund this property taking by the 
Corps, I am hopeful that we can revisit this matter. Again, 
somebody in your office that we can interface with, so that we 
can actually get this reversed, because this is totally 
unacceptable.
    Mr. James. Sir, right now I think the Corps has out for 
review--[to General Semonite] is this the one out for review?--
that is due right away, within the next month or two. I have 
marked it in my office to review whatever the Corps comes up 
with on this ruling, as we move forward, not only in your area, 
but the rest of the United States. That WOTUS [waters of the 
United States] rule has been overexpanded, it has been 
overinterpreted. And I am going to look at that. And if I have 
the power to do anything about the WOTUS rule----
    Mr. Weber. Let me interrupt, if I can, Mr. Chairman, with 
your indulgence. I have a developer that wants to go on there 
and put 250-something homes in this area. And that developer is 
held up by this taking right here. So time is of the essence.
    Mr. Semonite, can I jump to you real quick? Who do we work 
with?
    Mr. Graves of Louisiana. Please, quickly, and let's finish 
up.
    General Semonite. Sir, this is definitely tied up in the 
WOTUS work that we are doing with the EPA.
    Mr. Weber. OK.
    General Semonite. So this is a big issue. We will work it 
as a team, and keep you informed.
    Mr. Weber. Thank you. And thank you, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you. We are going to go to 
the ranking member, Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    General, the estimates I have from the Corps--to achieve 
and maintain constructed--widths, depths of all Federal 
navigation projects--are about $20.3 billion over the next 
decade. Do you have anything to contradict that, or--I mean 
that is a recent estimate we have.
    General Semonite. Sir, I am not exactly aware of that 
number.
    Mr. DeFazio. OK, all right.
    General Semonite. But I think that is probably in the 
ballpark.
    Mr. DeFazio. OK. So as we discussed earlier, since we are 
going to divert or perhaps even reduce the tax that goes to 
harbor maintenance, the projected budget is a little less than 
$10 billion.
    So is there a 50-percent increase in efficiency in dredging 
and maintaining jetties that you can conceive, unless we are to 
maybe commission, you know, the Chinese to come in and use 
illegal immigrant labor, or something? How are we going to 
get--how are we going to double our efficiency and achieve 
those depths and get to that point with that money?
    General Semonite. So, sir, I am not prepared to answer the 
actual doubling you are talking about. I know that you are very 
concerned about jetties. We are doing a study, and we are going 
to have that study done in about 4 months. And that should lay 
out some of those answers. I have not seen the analysis yet, 
but we want to come back to you. And, if nothing else, we will 
brief you on exactly where we are at with the jetty analysis.
    Mr. DeFazio. OK, I appreciate that.
    You know, Mr. Secretary, I mean I know you have only been 
there 4 weeks, and some of this preceded you. But again, if you 
look at these numbers, the estimates are if we fully spent the 
collected tax and didn't reduce the tax--for the next 5 years, 
if we spent $2.5 billion a year on maintenance dredging and 
jetty work on all our Federal projects, and then $1.6 to $1.7 
billion over the next 5 years, we could get to authorized 
depths and be at a state of good repair.
    How are we going to do that with half of that money? That 
is essentially the same question I put to the general, but you 
talked a little bit about reforms. I mean, you know, I have 
been here long enough--we used to have Federal dredges. We did 
studies that showed, in fact, they were more efficient and less 
expensive than the private dredging companies. But because of 
political influence--particularly a very powerful Senator from 
down in that southern area--we pretty much did away with most 
of the Federal dredges. We have some in reserve, and I have 
still got them operating in the Northwest.
    So how are we going to, you know, deal with that $20 
billion need over the next 10 years with half the money?
    Mr. James. Sir, I apologize, but I can't answer----
    Mr. DeFazio. I know. You have been there 4 weeks. Anyway, I 
am just putting that to you. So if you will think about that, I 
would love to chat.
    Mr. James. I will think about it, and I will be glad to 
visit you personally on it.
    Mr. DeFazio. Great. Here is something else that I know you 
won't know, but I just want to put this to you, because I have 
been trying to get the information. This is a regional issue.
    Columbia River, we have a treaty that has, you know, 
expired. We are in the beginning of renegotiation with Canada, 
and one of the most critical aspects of that is flood control. 
And I am trying to find out if the Corps has completed--and 
maybe the general knows, or maybe you--either of you probably 
don't know, but if you could get it to me--have you completed 
the modeling of that system? Because it is a critical aspect as 
we enter into negotiations to know what we need, in terms of 
flood control.
    The whole system has changed so much, with all the Canadian 
dams, you know, over the last 50 years, that we don't have 
current data, and our negotiators don't have it at the table, 
so--and we have to know and plug in flood risk management into 
this negotiation.
    General, do you have any knowledge?
    General Semonite. I don't know the exact answer on the 
modeling, I will get that back to you. But we are very, very 
aggressively working on everything involved with the treaty.
    But also we have an EIS [Environmental Impact Statement] we 
have got to do for the operating system. So all of that is 
pretty much wrapped up in what are the capabilities there. 
There are a lot of environmental issues, there are a lot of 
navigation issues. But that modeling is critical to be able to 
make sure it can inform both the Columbia Treaty, as well as 
the EIS.
    Mr. DeFazio. Yes. Well, the EIS, unfortunately, is due to 
an overly aggressive Federal judge, who basically adopted the 
arguments of the plaintiffs and said this is science, when it 
isn't. And so I understand you have been given--I think it is 
our fourth time around on this. And we even had marine 
fisheries and, you know, we had the--all the Federal agencies 
were agreeing that this was good. And I--but you are stuck with 
that. But I think the analysis of the flood risk is separate. 
And if the modeling is done, we need to know what the results 
are, and we need to get that to our negotiators.
    So thank you, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you, Mr. DeFazio. We are 
going to Mr. Mast for 5 minutes, the gentleman from Florida and 
the vice chair of the subcommittee.
    Mr. Mast. Thank you, Mr. Chairman.
    General, no question the Corps has an excessive amount of 
authorized water infrastructure projects by Congress. You all, 
the Corps, you have the technical expertise to complete these 
projects. Oftentimes the State has allocated their cost share 
of those expenses, yet there still remains billions of dollars 
of backlog of projects.
    And what I am wondering is another piece of this, that 
arbitrary quota that gets put on the new starts that can exist 
out there limits the Army Corps to a select number of new 
starts each year. Can you speak to does that policy, that new 
start policy, does that delay the Army Corps from completing 
some of the water infrastructure projects out there? Is that 
something we need to look at for reform for you?
    General Semonite. I think, just from our approach, sir, 
clearly it is a relatively minor investment to be able to do a 
study to inform Congress of where can the money be put to the 
best place. So if, in fact, there is an arbitrary limit that is 
put on us on studies, then of course we can't do that degree of 
analysis. So I think that, in honesty, I do think there is a 
limit in our capability to be able to inform Congress of where 
best to put the work.
    On the other hand, there has probably got to be some degree 
of guidance. You can't do too many studies, because then we are 
just going to continue to keep adding. So there is probably a 
sweet spot somewhere, and I will let the Secretary or, you 
know, the administration figure out where that is.
    Mr. Mast. So let's jump to that a little bit, those 
feasibility studies. You know, the readiness of the Corps to 
conduct these feasibility studies to begin construction 
projects, you know, oftentimes you have to wait for an 
appropriation cycle to move to the next phase of what is going 
on there.
    I was listening to your testimony from yesterday, and you 
literally said, ``Our feasibility studies are formulated with 
the assumption of efficient funding, and most all are multiple-
year projects, yet we are budgeted on an annual basis with no 
assurances that adequate funding will be available from year to 
year. This creates uncertainty for our non-Federal sponsors, it 
drives up project costs, and it delays the realization of 
benefits.''
    And what I am wondering--is there some reform that can go 
on in that area, maybe something in terms of development of 
some sort of revolving fund, where the Corps isn't subject to 
the fiscal year constraints? It gives you a little bit more 
flexibility to advance to the next phase of project completion 
without having to wait for that year over year.
    General Semonite. I think there is room in almost all of 
our processes to be able to find ways to streamline and to give 
us more flexibility. Most of our money is allowed to carry over 
into another year, and we try to budget efficiently. So I don't 
have a problem at end of year, having to initially obligate.
    But I do think, where we really have challenges a lot of 
times is when we have a construction project, where we get 
ready to go through something and every single year has to be 
revalidated, so that causes us to have a lot of confusion in 
the contractor base and the stakeholder base. So I think there 
is a lot of room--and this is what Chairman Graves said--there 
are a lot of things that we can do to try to somehow streamline 
some of these processes that have been too bureaucratic.
    Mr. Mast. And that is what we want to get to, right? 
Cheaper, faster, but more efficient, and a great product that 
you produce. So I thank you for your time, thank you for 
answering these questions.
    I yield back, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you. So now we are going to 
go to the gentlewoman, Ms. Frankel, for 5 minutes.
    Ms. Frankel. Thank you very much. Thank you, gentlemen, for 
being here.
    So maybe a couple years ago I sat in one of these Civil 
Works review boards, which I guess we don't have any more. But 
it was--it took, like, a full day. And there were, like, 
maybe--I don't know, there were a lot of people around the 
table.
    But one of the things that I got--I realized, in listening 
to all the discussion and the different steps was that a lot of 
the requirements of the steps were based on laws that the 
Congress had passed, and requirements.
    So I wanted to just ask you. I think one of you testified 
about impediments, impediments to the process, the 
authorization process. I would like you to tell me specifically 
what you see as impediments that have been created by the 
Congress, because that is where we could probably help out.
    Mr. James. The Chief may speak to this further, ma'am. But 
as far as I am concerned, there are some. It is not our place 
or our position to determine which ones are impediments and 
which ones are still good legislation. But when you go through 
the entire process that the Corps has to do on a continuing 
basis, either on a project or future policy, there is 
legislation, as well as our own internal policies, that affect 
that. I would be more than happy to talk to you about any of 
the individual legislation you may be talking about, or in 
general. I would be happy to talk to you personally.
    Ms. Frankel. Well, no, I am not--myself, I am not talking--
I am asking you because we may have the ability to--you know, 
you keep talking about changing your processes. I am asking you 
how does Congress impede your process.
    Mr. James. Well, ma'am, I think you would have to point to 
specific legislative pieces in order to point that out to----
    Ms. Frankel. OK. Maybe the general can answer that 
question.
    General Semonite. Well, ma'am, I mentioned this in my 
testimony, and I am not sure that any one of those actions was 
ever specifically to try to slow down, but the cumulative 
effect of all of those processes has had a significant impact.
    And I talked about the 20 things that we work, they are 
right here on a spreadsheet.
    Ms. Frankel. Right.
    General Semonite. We have worked very closely with the 
administration to say here are some ways that we could continue 
to be able to make sure we are protecting the environment, we 
are taking care of water resources, but it allows us to 
streamline, things like acquisition, long-term contracts, how 
do we go down through the budgeting process, how can we work 
through OMB and continue to be able to streamline the processes 
in OMB. So that is what we want to offer back to you, to help 
us find ways of helping ourselves.
    Ms. Frankel. Will that require legislative changes?
    General Semonite. I think some are, but the vast majority 
of them are policies. They are things that we can change by 
changing rules or regulations, but not necessarily law.
    Ms. Frankel. OK. Well, that is why I am just asking you if 
you thought we needed to change any of the laws.
    OK, I have another--my timer is not working, so I am just--
OK. So I have another question for you. Oh, and this is Mr. 
Shuster's favorite issue, this--yes, the sand. It is the sand.
    We are running out of sand in--we have run out of sand in 
Broward and Dade County. It is gone. And sand is very 
important, obviously for tourism, but also to protect the 
shoreline and so forth. So for them to get--I am going to give 
you an example. A recent Miami-Dade trucking contract was $8.6 
million for 140,000 cubic yards of sand. Now, they could buy 
sand, foreign sand, at about 50 percent less.
    Now, for the Congress, oh, you know, $8.6 million is 
considered chump change, but not for local governments. And I 
just gave you one example. So I tried to change the law. We 
did, in this committee. We changed the law that would make it 
easier to buy the sand from the Bahamas. Incidentally, the sand 
goes south. I think the sand from Miami went to the Bahamas, 
anyway, so we are just trying to get it back.
    But what happened is, along the way, I am sure--I am just 
guessing, but I know Mr. Shuster could probably verify this--
the truckers got involved in the process, because the language 
changed and turned what had been language in our bill into a 
study.
    Now, I don't think the study has been done. Has the study 
been done? I mean it is a stupid study, I don't know why we 
have to do the study. I am just curious, though. Did we do this 
stupid study?
    General Semonite. Ma'am, I am not tracking a study on sand 
in those two counties. The challenge we have--and this is a 
national issue--is we continue to spend an awful lot of money 
on beach renourishment, and we are having that same challenge 
in other places.
    So the question is are there innovative ways that we can 
try to retain that sand so that, if nothing else, we can dredge 
it from just where it is moving back on. Most of the stuff we 
do on the east coast is dredging that sand back on the beach.
    Ms. Frankel. OK, no, that is a different issue. I 
appreciate that issue, but that is not the issue. The issue is 
there is language that says if materials are not available from 
domestic sources for environmental or economic reasons, these 
local governments can't buy sand, for example, from the 
Bahamas. And so they are forced to buy sand from the middle of 
the State in Florida, and it costs them twice as much. All 
right? So that is the issue. That is a separate issue, until 
you invent the way to keep the sand on the beaches. They need 
the sand.
    Mr. Graves of Louisiana. The gentlewoman's time has 
expired. General, if you could please provide an answer to the 
committee in writing, that would be great. Thank you.
    I turn to the full committee chairman, Mr. Shuster, for 5 
minutes.
    Mr. Shuster. I am aware of the lady's problem with sand. 
The study is ongoing. And the ruling is--and you pointed out 
there--if it is not available, that they can buy foreign sand.
    But, you know, when I go to the beach sometimes I get sand 
in my shoe or other places, and it is just--we got to solve 
this eventually, because Ms. Frankel is--she can take it to me.
    [Laughter.]
    Mr. Graves of Louisiana. Are you suggesting they use a 
different material on the beach?
    Mr. Shuster. No. No, I am not.
    [Laughter.]
    Mr. Shuster. My question is not about sand, but it is about 
the upper Ohio. The upper Ohio of--I believe the OMB 
recommended that the project be looked at again for additional 
economic analysis, even though the first study said it. It is 
the first time I think I have ever seen the Government say 
restudy this because there is more economic benefit than you 
have already pointed out.
    So again, usually it is not enough economic benefit. So 
anyways, the $5.5 million I think you folks put forth to do the 
study, can you let me know how it is going? What is the 
timeline? Are you encountering any kind of problems that we may 
be able to help you in the legislation, as you move forward?
    General Semonite. Chairman, no issues. We were going to do 
it in 3 years, we are now doing it in 2. We took a year off of 
it.
    Mr. Shuster. That is great.
    General Semonite. We have enough money to be able to 
complete it. It will be done by summer of 2019.
    Mr. Shuster. OK, that is great to hear, great news.
    Second question is concerning the Raystown Lake. In the 
2016 WRDA we directed the Corps to update its master plan to 
look at alternatives for recreation, to look for the 
development possibilities. Do we need to have all that land 
that we have there that is--that could be developed in a county 
that is a very low-income county?
    The lake is a great benefit to them, but it would be of 
tremendous benefit if they could develop not on the water--I 
don't want that, I don't think anybody wants that--but, you 
know, you got a mountain that is 1,000 feet or so rising above 
it. If you were allowed to build along that ridge line it would 
be a tremendous economic positive impact.
    And I know that--funny how things work around here--that 
the only Corps lake that I have seen development occur on is in 
South Dakota, and that is because Senator Daschle put it in 
some WRDA bill years ago that they could do that. So if it is 
good enough for South Dakota, it is good enough for central 
Pennsylvania. So can you let me know where that master plan is, 
and how it is proceeding?
    General Semonite. So, Chairman, we are on plan to keep 
working this. We got money in the 2018 budget, about $600,000. 
We want to continue to be able to get it up and done. I don't 
have an exact date of when it is going to finish, but I will 
get that back to your staff.
    I think the other thing, though, is we are supposed to do 
these every 10 years, and sometimes we don't have the funds to 
be able to keep up with that. If we are able to do that in a 
more routine manner, then we don't need so much time to be able 
to get--this one is like 25 years old, up in Huntingdon County, 
so we need to try to figure out how to get this thing up.
    Mr. Shuster. Right.
    General Semonite. But we are committed to get this study 
done as fast as we possibly can.
    Mr. Shuster. OK. Thank you very much, and I yield back.
    Mr. Graves of Louisiana. We are going to go to the 
gentleman from California, Mr. Lowenthal, for, gosh----
    Dr. Lowenthal. Yes, thank you, Mr. Chairman. I will be very 
brief in my comments, not like some Members.
    [Laughter.]
    Dr. Lowenthal. General Semonite, Mr. James, I want to 
follow up on some of the comments and echo some of the comments 
of Ranking Member DeFazio, when he began to talk about the 
harbor maintenance fee.
    And, you know, the President prides himself as a builder. 
And you know our country has tremendous needs for 
infrastructure improvements, especially in our harbors and 
waterways.
    Ports are the center of the 21st-century global supply 
chain. They enable American manufacturers to reach foreign 
markets and to facilitate the movement of consumer goods and 
industrial imports throughout our Nation. They are a vital 
national asset. But they face new challenges with larger ships, 
rising container volume, more congestion, both at the gateways 
and on land.
    So in looking at the President's budget and the President's 
infrastructure proposal, it seems like the administration is 
trying to cast aside the Federal responsibility for these 
assets, cutting investments in the improvements that we need to 
make to grow commerce at our seaports.
    You know, last week we held a hearing on revenue options 
for surface transportation. However, I would like to point out 
in our harbors we have the revenue, yet the administration 
doesn't propose to spend it or to use it.
    Can you tell me what is the administration's vision for our 
ports? How do they propose that we meet these challenges of 
congestion, growth, international trade by not allocating the 
resources? Can you tell me?
    Mr. James. No, sir, I cannot. But I will be glad to meet 
with you later with staff, and we will discuss this.
    Unfortunately, I don't know enough about our ports yet to 
discuss them intelligently, and I don't want to give you some 
kind of off-the-cuff answer.
    Dr. Lowenthal. I--just to refresh--and I am not sure I know 
the exact names--you know that the harbor maintenance fee, 
which is really a user fee, or a harbor maintenance tax, which 
is a--generates, I think, over $1.6 billion. It goes into a 
trust fund. The President is only proposing to spend $900 
million of that. We have tremendous needs. We are generating 
for both dredging and for harbor maintenance. That is what the 
money is supposed to be used for. And yet I don't understand 
what the President's vision is, where we are going on that.
    So I would appreciate meeting with you and understanding 
that more. I think it is vitally important because the revenue 
stream is there. We are not talking about surface 
transportation, where there is no longer a revenue stream.
    Same issue is on the inland waterways fund. I would love to 
have a response back about what is the vision for the use of 
the inland waterway.
    Mr. James. Yes, sir. Certainly.
    Dr. Lowenthal. I think that would be appropriate, and I 
really look forward to our meeting.
    Mr. Chairman, I want to ask unanimous consent to enter into 
the record the executive summary of an Army Corps Civil Works 
report called ``The Ohio River Basin: Formulating Climate 
Change Mitigation/Adaptation Strategies Through Regional 
Collaboration with the ORB Alliance''--the Ohio River Basin 
Alliance. I am the cochair of the Safe Climate Caucus, and I 
often talk to my community about how we are going to have to 
adapt to sea level rise and other effects of climate change.
    General Semonite, I was struck by how this report detailed 
the substantial effects we expect from climate change in 
America's heartland along the Ohio River Basin, from higher 
stream flows in the spring to longer, drier droughts in the 
summer and fall, it seems that these challenges will require 
substantial investments in the resiliency of our inland 
waterways, which gets back to that fund.
    How is the Corps working to meet these challenges from 
climate change?
    General Semonite. I think, sir, the main thing is when we 
look at a project we have got to be able to predict what is 
going to be those future conditions. We can't design for today, 
we have got to be able to make sure we are designing for about 
50 years out. And then we have got to build them back in.
    So how do we take the effects of weather, how do we take 
all the things you are talking about, and make sure----
    Dr. Lowenthal. Climate change specifically, yes.
    General Semonite. How do we make sure those things are 
wrapped into a future project, and formulated? And then, how do 
you do that in an affordable manner?
    Dr. Lowenthal. So you build resiliency in, knowing that 
that is really going to be the issue.
    General Semonite. We always look at alternatives for a 
bunch of different options. And then, based on the best return 
back to the taxpayer, we pick the best alternative.
    Dr. Lowenthal. Thank you, and I yield back.
    Mr. Graves of Louisiana. Could the gentleman please clarify 
the author of the summary of the report he wanted in the 
unanimous consent agreement?
    Dr. Lowenthal. The author is--it is the Army Corps Civil 
Works----
    Mr. Graves of Louisiana. OK, so it is their executive 
summary.
    Dr. Lowenthal. It is their executive summary.
    Mr. Graves of Louisiana. Without objection, the report is--
--
    Dr. Lowenthal. Yes.
    Mr. Graves of Louisiana [continuing]. Included in the 
record of the hearing.

        [The executive summary from the report entitled ``The Ohio 
        River Basin: Formulating Climate Change Mitigation/Adaptation 
        Strategies Through Regional Collaboration with the ORB 
        Alliance'' is on pages 61-62.]

    Mr. Graves of Louisiana. Thank you. We are now going to--
should we shorten his time? Going to the gentleman from 
Illinois, Mr. Davis.
    Mr. Davis. I speak with a slow accent, too. Can I get some 
extra time?
    Mr. Graves of Louisiana. They usually just say that you are 
slow, but--please.
    [Laughter.]
    Mr. Davis. Mr. Chairman, thank you. And R.D., it is great 
to see you here. I am looking forward to working with you. We 
have worked together in the past, and I know you are going to 
do a great job here.
    But as you know, I always have some issues that I bring up 
with the Corps of Engineers. And it wouldn't be a first hearing 
for you here without me bringing up NESP [Navigation and 
Ecosystem Sustainability Program]. I think it is unacceptable 
that the Corps has taken a position to do another study before 
even we can get to preconstruction engineering and design. This 
project, NESP, has been studied, I believe, more than any other 
Corps project in your agency's history. And to do another 
economic analysis for a PED to move forward, I think, is a--is 
something that needs to be rethought.
    I want to remind the committee, too, that this was a 
position that the previous administration took after Congress 
has already spent nearly $60 million on preconstruction 
engineering and design.
    We have strong bipartisan support for this, R.D., for NESP, 
and moving the program forward. So can you commit today to work 
with me and my colleagues to get the preconstruction 
engineering design back on track as soon as possible, so that 
we can get these critical navigation and ecosystem restoration 
projects to actual construction?
    Mr. James. Yes, sir. I will work with you on that. And I 
would like to know your current thinking, as well as other 
Members that are concerned about NESP.
    My concern about NESP is that neither the environmental 
concerns nor the navigation concerns can go anywhere until we 
are funded to the spot that they can both go together. I think 
that is the way that was authorized. It has been a problem 
since the very beginning.
    At one point the environmental part of it could move, then 
the other couldn't. At another point the navigation part could 
move, the environmental couldn't. It almost looks like it was 
put together that way, I don't know. But I would like to visit 
with you. And if you have any more people interested in getting 
together, I would be happy to do that.
    Now, the general may shed some light on where we are right 
now, but I would like to look at that, too. Thank you, Mr. 
Davis.
    Mr. Davis. Thank you.
    General Semonite. I will just keep it short, sir. Bottom 
line--you know this well--37 locks, these are all about 70 to 
80 years old, 1,200 miles of river. If we don't do something 
soon--I mean we can't keep putting Band-Aids on these.
    Mr. Davis. That is exactly why I made this point. To do an 
economic analysis once again, I think, is just overkill. And we 
have got to move on.
    Another issue that I know we are going to work together on, 
Mr. James, is on Asian carp, Brandon Road. I am working with my 
colleague, Mr. Mitchell, to find ways to make sure that we 
continue to reduce the Asian carp population in the Mississippi 
and Illinois Waterways.
    I have a concern, though, that the Corps may be rushing 
toward an authorization of authorizing a project for $250 
million that actually may be a solution in search of a problem. 
I had our Illinois Department of Natural Resources director, 
Wayne Rosenthal, here in DC last week, and he reminded me that, 
since 2012, the State has reduced Asian carp population in the 
Dresden Pool below the Brandon Road lock by 93 percent already. 
So what we are doing seems to be working.
    And further, it is the conclusion of the Department of 
Natural Resources in the State of Illinois that, based on 28 
years of scientific monitoring data, there is no indication 
that the Asian carp population front will move from its current 
population and its current position. This is evidence to me 
that we are currently doing something that is working.
    That is one of the reasons why I am supportive of the GLRI 
[Great Lakes Restoration Initiative] funding, which the 
department uses for these population reduction efforts.
    Specifically, Mr. James, I am concerned that, following the 
Corps' release of the tentatively selected plan, an entity 
outside the State of Illinois could be chosen as the non-
Federal partner for this project. And unfortunately, this, as a 
possibility, has apparently been alluded to by leadership at 
your Chicago district office.
    Does the Corps have the authority to name a non-Federal 
partner when the project is completely within the State of 
Illinois that wouldn't be the State of Illinois?
    Mr. James. I visited with the Lieutenant Governor maybe a 
week or 10 days ago about this very issue. You know, I can't 
answer that, Mr. Davis. I think that is an issue that the State 
holds the trump card on.
    I have also met with some of the other adjoining States 
that are really pushing for this, and I wish I could give you a 
yes or no. General Semonite may have a differing opinion than 
me, but I don't think we can recognize a sponsor of a Federal 
project outside of a State boundary. And that is including the 
earth under the water.
    General Semonite. And I would concur our analysis is that 
unless the State wants to be able to share with someone else, 
there is no authority we have to force an external player to 
come into a State.
    Mr. Davis. Well, I appreciate you working with me and my 
colleagues, like Mr. Mitchell. We all have the same goal, we 
just want to make sure we do it in a way that addresses 
Illinois's concerns.
    Thank you, and I don't have any time to yield back, Mr. 
Chairman.
    Mr. Graves of Louisiana. I think we have heard enough.
    [Laughter.]
    Mr. Graves of Louisiana. I want to thank the gentleman from 
Illinois. We are going to go to the gentleman from California, 
the ranking member of the Coast Guard and Maritime 
Transportation Subcommittee, Mr. Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you.
    Secretary James, welcome. I look forward to working with 
you. You have got a big job out ahead of you, and it will be a 
pleasure. I represent the Sacramento Valley, California, 200 
miles of the Sacramento River.
    General Semonite, thank you so very much for coming to 
Beale Air Force Base. It was a pleasure meeting with you and 
working with you there, and I look forward to your good work 
out ahead.
    Like most Members, I have got my own projects. I am going 
to go through them very quickly. I know that you are aware of 
them.
    Marysville, a city in my district, there is $35 million in 
the budget, we appreciate that. There may be more. We can 
finish this entire project. It has been all on board.
    The Sutter Basin, this is the Feather River, the west side 
of the Feather River, a 40-mile project. There is about 5 miles 
left to do. We can get it all done. It is ready to go. It does 
need a new start designation, but it has been underway for a 
long time.
    And the city of Woodland, the lower Cache Creek feasibility 
study. It was on, it went off because of some local issues. It 
is now--we want to move it forward. We appreciate your 
attention to that.
    Hamilton City, another project almost completed, making 
progress on that, $6 million.
    And then we get down to the really interesting questions. 
You have heard from all of us. We have got our projects, we 
need our money. Keep in mind that in the infinite wisdom of 
this legislature, our Congress and the President, we ripped 
$1,600,000,000 out of the Federal Treasury over the next 10 
years. So you want to know where the money is? It is gone.
    And so, when we holler and scream about the Harbor 
Maintenance Trust Fund and why it is being ripped off to be 
used for other things, well, there is the reason. There is a 
huge hole in the Treasury that is being filled by the Harbor 
Maintenance Trust Fund and by the inland waterways fund, both 
of which are being ripped off to backfill the hole that we 
created in our wisdom or lack thereof.
    And so we are going to scream and yell about money, but it 
is all gone. The trillion-and-a-half dollar infrastructure plan 
that the administration is putting forward, of which $200 
billion is Federal money, that is not new money, that is 
existing money, some of it coming right out of the Corps of 
Engineers.
    So if we are looking for the devil, it is us. We did it to 
ourselves. I don't know how we are going to deal with all of 
this, going forward. The fact of the matter is the money is not 
there. The $96 billion of projects already authorized, it is 
not going to happen until this Congress decides that it is 
actually going to find new revenue.
    So, you know, enough of that.
    You have got six principles in your testimony, Mr. James, 
some of which have profound effect on the way in which the Army 
Corps of Engineers will operate. I know that you don't have the 
detail today, but you are going to be under enormous pressure 
from the administration to carry out the principles in the 
infrastructure program, of which the six principles in your 
testimony will radically change how the Army Corps of Engineers 
operates, not just on the environmental side, but on the 
operational side. So we have got some challenges out ahead on 
the policy.
    You are not going to be able to respond today. You have 
been at this less than 3 months--2 months, actually. But I just 
draw your attention to those six principles. Obviously, I want 
my projects. Obviously, we all do. Obviously, there is no money 
for any of this, or for much of it.
    But the six principles that you mentioned in your opening 
testimony have profound effect on all that we do. So I look 
forward to working with you or perhaps against you as those 
principles are enunciated and as they come into legislative 
reality, or at least before us. I will let it go at that. We 
both have some enormous challenges out ahead of us. I look 
forward to working with you.
    Welcome. If I can provide you with any information on the 
Sacramento River I look forward to that. And I am looking 
forward to what you have offered everybody else, that in-office 
opportunity to talk.
    Mr. James. Thank you, sir. And I will take you up on that. 
And you know, I am willing to look at those principles and get 
your opinion on what they would affect. I am trying to affect 
efficiency and getting down to actually moving dirt. So we will 
work on that together.
    Mr. Garamendi. Well, given your many years on the 
Mississippi River and my work on the Coast Guard maritime, we 
will be coordinating, as well as on this committee. I look 
forward to working with you. We do have challenges.
    Mr. Graves of Louisiana. Thank you, Mr. Garamendi. We are 
going to go to the gentleman from Texas, Mr. Babin, for 5 
minutes.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman. And thank 
you, Mr. Secretary and General. Congratulations on your 
appointment. And I am glad you are where you are. A lot needs 
fixing at the Corps of Engineers, and I know you have a big job 
ahead of you.
    President Trump has repeatedly said that we need to shorten 
the permitting process. This is a great concern to me, as well, 
especially in my district of southeast Texas, from Houston over 
to Louisiana. I have always had a great relationship with the 
Galveston District, I served 15 years on the river authority, 
the LNVA [Lower Neches Valley Authority], and then also had a 
brother-in-law that worked for the Galveston District for about 
25 years, who retired a number of years ago.
    But lately we have been getting a lot of complaints about 
permitting. It just doesn't seem that the Galveston District is 
adhering to the national standards for performance results. It 
is my understanding that only 11 permits were approved out of 
more than 100 pending. I have talked to numerous constituents 
who were supposed to get an answer in 60 days. It has been more 
than 180 days. So I have a real concern about that.
    On another note, Hurricane Harvey was an unprecedented 
storm. But now we know there is precedent for a future one. 
What can I report back to my constituents about lessons learned 
and actions taken by the Corps to help make sure that this same 
disaster does not strike if we are hit again next year or 5 
years from now?
    And also, if you would address the permitting, as well, 
thank you.
    Mr. James. Thank you, sir. And thank you for the welcome. I 
have a priority on my desk of working with the general on the 
permitting process actually in shop, in his command. He is 
already working on that. I have a task force I established, and 
we are going to work on it and--from a different perspective, 
and hope we together reach a good end for everybody. I have 
been familiar with it and impacted by the permitting process 
for years, myself.
    Dr. Babin. Right. I am sure so.
    OK, and then you have heard a lot of constructive criticism 
today, but I want to talk to you about an issue that I believe 
the Corps actually does get right. But it is in another sector 
of our Government that, unfortunately, does not.
    As you know, when determining benefit-to-cost ratios, or 
BCRs, the Corps of Engineers calculates an unquestionable 
economic value of a project that is in the energy export supply 
chain. This is called a section 6009 value add.
    Unfortunately, as I see it, not everyone in our Government 
does the arithmetic the same way. Namely, the OMB. This means 
that for projects like my Cedar Bayou project terminal in my 
district, in Baytown, Texas, the value you assign is five to 
one. But OMB's is less than two to one.
    And a discussion for another day, Congress has yielded most 
of its specific spending authority to the administration, and 
this office in particular. So, unfortunately, the decision of 
OMB is pretty much how things will stand, and it has been 
several years we have been trying to get this project off the 
ground.
    Can you explain a little bit why the Corps makes these 
commonsense calculations on section 6009? And can I get your 
commitment to explain to officials at OMB why they should do 
the same thing?
    Mr. James. I can explain the first. I cannot commit to 
trying to get OMB to do anything. Now, I have already met with 
OMB once. I have met with the Secretary of Agriculture once. 
And I have meetings planned for EPA and the Department of the 
Interior--basically, the U.S. Fish and Wildlife Service. As far 
as OMB, I am working with them, trying to get them to 
understand better where our benefit-cost ratios are coming 
from, and how we are prioritizing projects with the limited 
funding we have available.
    And you know, they have the decision. They are the Office 
of Management and Budget, and they have had that job under 
every administration that I have witnessed. And so it is not a 
change. But I do think there is a glimmer of hope that we will 
be able to explain our positions maybe more than there have 
been in the past.
    Dr. Babin. OK. You never addressed my storm question, 
either, but that is OK. I am out of time. And so I will yield 
back.
    Mr. James. I will be glad to meet with you on it.
    Dr. Babin. OK, thank you.
    Mr. Graves of Louisiana. I thank the gentleman from Texas. 
We are now going to go to the honorable acting ranking member, 
Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. I just wanted to hit the gavel.
    [Laughter.]
    Mrs. Lawrence. My question to Lieutenant General, with the 
development and maintenance of our water systems and 
infrastructure, the need for skilled trades has drastically 
increased, because we will and we shall invest in our water 
infrastructure.
    Even now, more than 8,300 skilled trade job openings are 
across all industries in Michigan, and more than 6,200 are 
expected to be available each year through 2022. This creates 
an issue that must be included when you are planning and 
navigating in your job.
    As the cochair of the Congressional Skilled American 
Workforce Caucus and advocate for skilled trades, I am very 
concerned about the skill gap facing our country.
    Lieutenant General, what do you think the administration 
should do to increase the number of skilled trade workers, 
given our country's mass infrastructure needs, especially when 
States like Michigan will not be able to meet their labor 
needs?
    General Semonite. So, ma'am, I share your concern. This 
goes to a much bigger question. It goes back to not just 
skilled trades, but also having the same thing with STEM when 
it comes to engineering, the capability to be able to make sure 
we have the capacity to be able to do this.
    I have not thought through how the Nation should solve this 
issue. I stay in my lane and I worry about making sure we have 
got the capability in the Corps. I would love to be able to 
take it on, but I am looking for innovative ways now of 
bringing people in. I have a hard time hiring people because of 
the challenges we have of going through the hiring process. I 
would love to be able to--if I find somebody to apprentice--I 
would love to do direct hires so I can go down to an apprentice 
or a local co-op and to be able to bring them in.
    The average right now is over 100 days to be able to hire 
an employee. We just can't do--that goes back to this thing 
about process. How can we find better ways of being able to 
change some of the policies to be able to bring people on 
board?
    It is a concern, though, without a doubt.
    Mrs. Lawrence. Lieutenant General, you said something that 
is extremely important: staying in your lane. This issue of 
skilled trades has risen to a point that we are bordering on a 
future crisis. And we are going to have to be able to work 
across our lanes because the education, the employment--and 
actually the Corps should have an internal system to develop, 
recruit, and develop, and not just think that we are going to 
be able to pull in skilled workers. So I am going to be pushing 
for that.
    I want to pose a question about water affordability. I 
represent the city of Detroit. And there is a growing issue 
because of the cost of infrastructure in communities with the 
affordability of water. I am from Flint, Michigan. I am very, 
very sensitive about the infrastructure of water.
    As our systems continue to crumble, especially in our 
large, urban areas--in Detroit, over 90,000 residents, which is 
14 percent of the population, are not or cannot afford to pay 
their utility bills. This is due because, in order to maintain 
the system, there is an increasing cost just for drinkable 
water.
    I know you keep saying, your honor, that you have only been 
in the job a short period, and I recognize that. But that must 
be on your agenda. You must be extremely aware and sensitive to 
the fact that affordability of safe drinking water must be on 
the agenda for the Corps. And I would like for you to comment.
    Mr. James. Yes, ma'am, and I agree with you 100 percent. 
And that is not just in your area, that is all over the United 
States. We are seeing it in areas that you would think have 
plenty of water. And yet, for fresh drinking water, that is not 
the case.
    That is not under the Corps' purview, water supply. It is 
added at times. And I am not sure that we shouldn't be looking 
at it as a Nation. But that is my feeling. Fresh drinking water 
is--you know, it is--our first job is to protect the people, 
provide for the people, and fresh drinking water is number one, 
when you come to that.
    Mrs. Lawrence. It is a necessity for human life.
    Mr. James. It is.
    Mrs. Lawrence. And it must be a priority.
    Mr. James. It is.
    Mrs. Lawrence. Thank you.
    I yield back, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you. We are now going to Mr. 
Mitchell for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair, and thank you for 
allowing me to participate in the hearing, sir.
    Unfortunately, my colleague from Illinois left. I am well 
aware that the State of Illinois has a different perspective on 
the Brandon Road question than we do, than the rest of the 
Great Lakes do. I would ask the State of Illinois if they would 
indemnify the Great Lakes States, should Asian carp get into 
Great Lakes, but we know that is not--they can't afford that. 
They have enough problems. I would ask my colleague, but I 
don't think he wants that bill.
    So I would urge the Army Corps to continue to look at the 
Brandon Road, continue to look at how to implement that. 
Because while they contend that Asian carp are down to 93 
percent of what they were, it only takes a few to create a 
major crisis in the Great Lakes. And I continue to urge the 
Army Corps to move forward. And, if need be, we will wrestle 
with the State of Illinois, and it will be fun.
    And another project I wanted to ask you a question about, 
General, is, as you both know, there is an economic evaluation 
report in progress for the Soo locks. Can you tell me what the 
current status of that report is?
    General Semonite. So, sir, we have been pushing hard to be 
able to continue to bring this to the left. Right now I talked 
to the district commander. They are in the final throes of 
recalculating what that looks like. I will see that in another 
month or so. And then it is our goal to try to get that in so 
that, if there is a WRDA, we can certainly have that eligible 
for WRDA.
    We are using a date roughly the order of magnitude around 
June to be able to get things into the committee, and I think 
that is what we would be looking at.
    I think there is another discussion we have to have, as 
well, on the value of Soo locks to national security. And do 
we, in fact, have to hang Soo locks on a benefit-cost ratio, or 
is that a project that has so much more value that perhaps 
there is another way that the committee can look at authorizing 
that.
    Mr. Mitchell. Well, I would agree. When the report is done 
right around June, will you release that to the public at the 
same time, do you believe?
    General Semonite. I think so, sir.
    Mr. Mitchell. OK. It is my understanding, for a project to 
move forward, if you just look at economic value, it needs a 
cost-benefit ratio of one. Is that correct? At least one or 
greater?
    General Semonite. For me to sign a Chief's Report, it is a 
benefit ratio of 1.0 at the current interest rate, which is 
about 2.35, I think they use----
    Mr. Mitchell. Right.
    General Semonite [continuing]. Or whatever it is.
    Mr. Mitchell. One of the problems I understand in economic 
analysis is they don't consider what they call tertiary 
factors. Those include people losing their jobs. The estimate, 
which most people agree on, is about 11 million people, 
Americans, will lose their jobs within the first 90 days, 
should the Poe lock go down.
    Back to national security, back to economic rationality, I 
went to school in economics and public policy. The idea that 
you don't consider job loss and economic impact on this country 
as part of evaluating the economic value of something like 
this, does that make any sense to you?
    General Semonite. Sir, on all the projects we do there are 
always a lot of stakeholders that want to add additional 
analysis in there. I think, in fairness, we have a set of 
authorities that we normally follow on what can be included and 
what can't. I am not necessarily sure whether job loss is one 
of those, but I think it is something we have got to be aware 
of. But I am not sure that we can add it into the calculus.
    Mr. Mitchell. Well, it is my understanding that job loss, 
as a tertiary item, is not in that one-to-one economic 
calculus. I have had pretty extensive conversations about that. 
And while I understand the idea that stakeholders have a 
variety of positions on it, the reality is these are people 
working in this country. They are the people that vote for all 
of us here. They vote for us so we can actually provide money 
to the Army Corps to do what they need to do. So I think they 
fall in a different category than some interest group, frankly.
    So I could not encourage more the Army Corps--it is not 
just this project. I just look at the projects in the country. 
We need to look at the economic impact of those, in terms of 
the impact on individuals to--will people lose their jobs if 
you don't do it? How many people are going to be impacted? To 
say that is not part of the economic analysis is, to be honest 
with you, a pretty astonishing thing, to me, I have found.
    What is the next step after your economic analysis, sir?
    General Semonite. So then we will, obviously, see where it 
competes in the budget. And if, in fact, it competes well, then 
we continue to drive on.
    So, we are very aggressive on the Soo locks. I personally 
was there about 2 months ago. I know the Secretary is going, 
and it is something that we think is very, very valuable. And 
we can talk all day about security, especially with the 
Department of Defense. This goes back to steel, it goes back to 
other things, when it comes to what the Department of Defense 
needs in time of war to be able to make sure we have the right 
degree of iron ore to be able to take care of our country.
    Mr. Mitchell. Well, and you are right. On the national 
security front, it is not just a time of war. The ability to 
supply iron ore and various other things for the defense 
contractors to build what they are currently building just to 
make this country safe is jeopardized.
    Can you real briefly, as I am running out of time, outline 
a couple of the national security concerns you see with not 
having a second lock?
    General Semonite. Well, I think it really goes back to what 
our Nation would need to be able to mobilize very, very 
quickly. And if you don't have that capability coming in, you 
are just going to have to find what we talked about earlier. 
You are going to have to find another way of moving iron ore 
around through the lock, and that is very expensive, and it 
takes a lot of time.
    Mr. Mitchell. That infrastructure doesn't exist right now, 
either.
    General Semonite. Exactly right.
    Mr. Mitchell. Rail lines to move around the Soo locks was 
between $6 and $10 billion, and the cost to put in a new lock 
is estimated at what?
    General Semonite. I am not sure of the number, sir.
    Mr. Mitchell. OK.
    General Semonite. It is a large number, without a doubt. I 
can get it to you, it is in the book.
    Mr. Mitchell. I appreciate it.
    General Semonite. I will see you afterward, and I will tell 
you the number in about a half an hour.
    Mr. Mitchell. Well, my time is expired, and I appreciate 
the--thank you, sir.
    Mr. Graves of Louisiana. Thank you, Mr. Mitchell. I am 
going to turn to the gentlewoman from Illinois, Mrs. Bustos.
    Mrs. Bustos. All right. Thank you, Chairman Graves and 
Congresswoman Esty, and thanks to the Army Corps for being here 
today.
    My congressional district covers the entire northwestern 
region of the State of Illinois. So the entire western border 
of my district and, of course, the State of Illinois is the 
Mississippi River, and then we have the Illinois River that 
runs through the southern part of my district. So I just want 
you to understand where I am coming from.
    And I know that people from throughout my congressional 
district would line up and talk with you about how the locks 
and dams have outlived their usefulness. I mean you understand 
this.
    Our inland waterway system moves more than 600 million tons 
of cargo each year. But because of the outdated infrastructure, 
nearly half of the shippers are experiencing delays. Again, I 
know I am not telling you anything you don't know.
    The fix-as-fail approach of the locks and dams puts our 
growers and our manufacturers and the navigation industry into 
a guessing game as to whether they are going to be able to 
deliver their goods on time. And Assistant Secretary James, I 
know that, as a farmer, that you understand this. And I am 
really happy to have you at the Corps. I love that you have 
that background.
    Also, I know that my colleague from Illinois, Congressman 
Davis, brought up NESP. And that both the navigation and 
environmental aspects of the program are critical to his 
district, my district, to our State, to our region. So I do 
really appreciate your commitment and also would appreciate 
being able to work with you, and just wanted to let you know I 
am somebody who you can work with on that program.
    So let me get to my questions. The President's fiscal year 
2019 budget request proposed a new user fee on commercial barge 
owners operating on the inland waterway system. This fee would 
be on top of the current diesel fuel tax that was just raised 
in 2014.
    At the same time, the budget fails to spend the money that 
users have already paid into the Inland Waterway Trust Fund. So 
I am wondering what the administration's reasoning is behind 
imposing a new user fee, while failing to reinvest the full 
money users have already paid to improve our locks and dam 
system.
    And, Mr. James, maybe you could start with that, please.
    Mr. James. Yes, ma'am. Thank you very much.
    Mrs. Bustos. Thank you.
    Mr. James. Thank you for the welcome.
    Mrs. Bustos. Yes.
    Mr. James. The increased fee is to prepare for 
infrastructure investment in the inland waterway system over 
the next 10 years. I know we have a balance in there right now, 
and I do know that the navigation industry heartily agreed to 
the 29 cents. I can't honestly say what they think about the 
additional fee. I haven't talked to them about that.
    But that is why we have asked to put on that additional 
fee, to try to build up a coffer so that when we do get the 
money through the regular funding process, we can move out on 
these antiquated locks and dams.
    Mrs. Bustos. Lieutenant General, anything you would like 
to----
    Mr. James. It wouldn't be my way of doing things, those 
trust funds. But that is the way they are.
    General Semonite. I think the Secretary has got it, ma'am.
    Mrs. Bustos. OK. Now, is there an economic analysis that 
you could provide that would evaluate the impact of a user fee 
on the commercial barge industry to help them understand, to 
help us understand what that would do to the cost of goods 
being shipped along our rivers?
    Mr. James. I haven't seen anything like that in writing. 
The staff will look at that, and if I can find something, I 
will sure get it to you.
    Mrs. Bustos. OK, that would be helpful. We would just like 
to have a deeper understanding of what that would look like, if 
you don't mind.
    Mr. James. Yes, ma'am.
    Mrs. Bustos. With my remaining 1 minute and 20 seconds, so 
we have an $8.7 billion backlog of inland waterway projects. So 
when the President gave a speech about our locks and dams last 
summer, on the Ohio River I had hoped to see a plan for real 
investment in infrastructure.
    Unfortunately, there hasn't been additional Federal 
investment in the locks and dams plan. And with no new starts 
included in the budget, and so many of our locks and dams far 
past their design life, as we have just brought up, what is the 
administration's plan for addressing the need to upgrade our 
locks and dams? If you could get into that, either one of you.
    Mr. James. Ma'am, I can't address that at this time. I 
guess I would say I don't know the position right now. That is 
basically a pretty deep policy position, and honestly, I 
haven't been here long enough to get into that.
    If I can determine that, I will get to you with it as soon 
as possible.
    Mrs. Bustos. OK. And we would love to have a deeper 
conversation after you have had a chance to get settled in a 
little bit. And Lieutenant General, is there anything that you 
might be able to offer on that?
    General Semonite. I would just say, ma'am, the most 
important thing we can do is, from an engineering perspective, 
make sure that Congress and the administration understand the 
risk if, in fact, you don't invest in infrastructure.
    Mrs. Bustos. That is a great point. That is a great point.
    All right. I am out of time, and I just want to thank you 
both for answering my questions. I appreciate it.
    With that, I yield back, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you. We are going to go to 
the gentleman from Kentucky, Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman. I would like to note 
that my colleagues have asked a lot of dam questions today, but 
nobody has asked the dam question I care about.
    I wanted to ask about Olmsted and lock 53. The whole series 
of dams works together, and so, even though this project is not 
in my district, it matters to everybody, really, in the eastern 
part of the country. We had some intermittent problems with 
lock 53. And so everybody is anxiously awaiting seeing Olmsted 
come online, at least enough to ameliorate the issues at lock 
53.
    Could you tell us where we are on the schedule of seeing 
that?
    General Semonite. Sir, we are doing great on Olmsted. It 
will all be done this summer. At some point we want to invite 
everybody out there. We will have some type of a ceremony and 
be able to make sure that we recognize that.
    I think, just because you brought it up, this is where, if 
you do things in a deliberate manner with full, efficient 
funding, then we can get things done the right way. So this is 
where we had the capability, did it in a period of time. I am 
sure everybody would like to have gone faster. There are other 
locks or dams right now that we are dribbling money at, which, 
instead of doing it in an efficient way, which could be 3 or 4 
years, we are doing it over 15 or 20 years. And as a result, it 
just gets to be very, very inefficient, and very, very 
expensive.
    But Olmsted is a success story of how to be able to 
effectively fund a project.
    Mr. Massie. Well, we can ring the bell when it is working. 
I think we have had a few times in Congress--not that 
particular project--where we celebrate a victory too early. But 
when it is working, I will be glad to help cut the ribbon. 
Until it is working, don't bother inviting me to the ribbon 
cutting.
    Mr. James, welcome on board. Congratulations on your 
nomination. I was looking through your history here and I saw 
that you are an alumnus of University of Kentucky. 
Congratulations. That is not my alma mater, but we are awfully 
proud of it in Kentucky.
    Mr. James. Well, we all couldn't get in there, sir.
    [Laughter.]
    Mr. Massie. Yes. Some of us had to settle for MIT.
    [Laughter.]
    Mr. Massie. I wanted to ask you about the President's 
initiative here, following up on Mrs. Bustos's questions and 
concerns. And I know you have only been in the hot seat for a 
few weeks, but some of us were left sort of scratching our head 
more at what the proposal for the user fees didn't say than 
what it did say.
    I don't think that the users of the inland waterways are 
excited about paying a new fee after having voluntarily agreed 
to an increase in the fee they pay. You know, one thing I would 
like to note. The harbors and the inland waterways are similar 
in that the recreational folks get a free ride, if you will. 
But the inland waterways also have some other users, like the 
hydroelectric dams and many municipal water supplies who 
benefit from the inland waterways. So there is not a whole lot 
of excitement for paying more fees from the one user that does 
pay the fee.
    But one thing that I did want to ask about before I run out 
of time is P3s [public-private partnerships] were put forward 
in the President's plan as a way to maybe facilitate more 
investment in infrastructure. But a concern that I have and a 
lot of folks share is who would the investors of these P3s be. 
Would these be Wall Street banks, sovereign funds, foreign 
national companies? And is it wise to let foreign countries 
have ownership of such a strategic and important part of our 
infrastructure that plays a role not just in transportation, 
but also water supply?
    I am going to ask you, Mr. James.
    Mr. James. Well, I have a concern about those, as well. My 
concern is that the areas of the country that don't have 
buyers, whoever they are, to help furnish money for projects 
may be left out under that scenario.
    Now, the President, I was very happy to see that in his 
proposal he has funding for rural America cut out of there as a 
slice--a pretty good slice--of his proposed funding for the 
infrastructure initiative.
    So you know, to answer your question directly, I don't 
think I can. I have no idea of the planning, that initiative 
has not trickled down to my level. And so I really can't answer 
your question.
    Mr. Massie. Well, let me just close by thanking you, 
General Semonite, for the attention to Olmsted. We are very 
appreciative of the action that has been taken on that, and 
understand that it requires funding to pay for it.
    And Mr. James, I look forward to working with you, and just 
ask that the users who are going to pay the fees be included in 
the discussion about any alternate ways of paying those fees.
    Thank you, and I yield back.
    Mr. Graves of Louisiana. Thank you. We can go to the 
gentlewoman from Texas, Ms. Eddie Bernice Johnson, for 5 
minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman and Ranking 
Member, for holding the hearing. And let me again acknowledge 
and welcome our witnesses, and say that one of the President's 
infrastructure legislative principles includes the Federal 
divestiture of assets. And I understand that we are seeking new 
and creative ways to fund infrastructure projects.
    However, what we don't want is to sell off our assets to 
simply the highest bidders, regardless of the entity's ability 
to efficiently and effectively manage those assets for the 
public good.
    I am from Dallas, Texas. It is the inland part of the 
State, where we have to build and supply our own water. And I 
believe that the State and local governments are best equipped 
to understand and utilize these assets that the Federal 
Government is looking to divest itself from the responsibility.
    But in this context of Federal divestiture, has the Corps 
considered a right of first refusal for State and local 
government entities?
    Mr. James. On the particular projects, ma'am, no. I think 
the way I have read what is out there at this time is that 
State and local governments plus any other entity could get in 
on that plan, as far as purchasing.
    Ms. Johnson. Well, as this consideration goes forward, I 
would like very much to get your commitment that you will first 
consider the impact on local communities, because Texas relies 
heavily on its inland waterways for the movement of goods and 
throughout the gulf. In fact, just this week the Corps outlined 
its plan to modernize the Gulf Intracoastal Waterway at the 
Brazos River flood gates and the Colorado River locks.
    However, the President's budget request proposes some 
alarming changes to the Inland Waterway Trust Fund that could 
impact the cost of goods for shipment along the inland system, 
such as the Gulf Intracoastal Waterway. Even more alarming is 
the President's push to privatize segments of the inland 
waterways system.
    I would like if you would elaborate on the rationale behind 
this push to privatize certain projects along these inland 
waterways, and then how it might impact existing projects such 
as the Gulf Intracoastal Waterway project in Texas.
    It is unique that an inland city is one of the largest 
trade cities in the country. And so we depend a lot on 
transporting by waterways, both the ports at Houston, as well 
as Long Beach. And we have some real concerns about the 
waterways and how they are being managed.
    Mr. James. I understand and I sympathize with your 
concerns. But at this time I would like to visit with you on 
that as I get more information, due to the fact that I haven't 
been here very long, and I apologize for that. But as I get the 
information and digest the information, get some briefing on 
the information, I would like to visit with you further on this 
subject.
    Ms. Johnson. OK. Well, thank you very much. We have had 
great working relationships with the Corps. We want to continue 
that. And I appreciate your willingness to get back with me.
    In 2017, Hurricane Harvey brought the greatest amount of 
waterfall ever recorded in the lower 48 States, due to a single 
storm in Texas. In what ways does the President's budget 
request help to not only meet our current water-related 
infrastructure needs, but also to build these projects more 
durably, because we know that resilience is going to be very 
important for the future.
    General Semonite. So, ma'am, let me take that. I think the 
most important way is not necessarily in this year's budget, 
but it is in the supplemental, the disaster supplemental that 
was passed. We got $17.4 billion from Congress to be able to 
invest. And there was a very specific lay-down of where that 
money should go. But most of that money would go into the areas 
that were affected by Harvey, Irma, and Maria.
    So that is where we are really going to be able to look at 
the resiliency. How do we come back in? So some of that--we 
will have to look at studies, there are a lot of different 
engineering solutions. But as we continue to put that portfolio 
together, we will bring it back up and then make sure that 
everybody is informed as to where that investment is going to 
go.
    Ms. Johnson. Thank you very much, and thank you, Mr. 
Chairman.
    Mr. Graves of Louisiana. I thank the gentlewoman from 
Texas. We are going to go to the gentleman from Florida, Mr. 
Webster, for 5 minutes.
    Mr. Webster. Thank you, Mr. Chair.
    Lieutenant General, I have a question about the--there was 
a backlog prevention provision in the last WRDA bill, and I 
assumed that that would mean that there would be 
deauthorizations of some sort. Is there an ongoing list? Are 
you working on that? Is that happening?
    General Semonite. Yes, sir. We have the list--I have got it 
right here--of exactly where we are trying to deauthorize. 
Also, some of this is where we are getting disposition to get 
rid of things that we don't need any more. So we can----
    Mr. Webster. Is there a dollar amount associated with that, 
or an ongoing--or a dollar amount that----
    General Semonite. I don't think it is that--I have got 
dollar amounts for every single project. We can certainly lay 
this out for you, exactly where you want to ask. But I have got 
probably a 20-page list here of different items that are in 
there.
    Mr. Webster. Is it growing or is it done?
    General Semonite. No, I think it is--there is a dollar 
number. I am looking at a deauthorization list of $1.48 
billion. And I think sometimes things get added, sometimes they 
come out. I think it is probably continuing to get smaller. But 
let me verify and come back with you on that.
    Mr. Webster. Well, print it out before it gets smaller, 
maybe we could stop the going down.
    But is there a provision or anything to make a report to 
Congress on those?
    General Semonite. This is an annual list. I think we 
provide it every single year. Some of this is where the 
locals--the sponsor doesn't have the funds, or something 
changes on the local side. So you authorize us to go on with a 
project, but the conditions are not necessarily set to go.
    So then they just hang on the list. And several people have 
talked about the $95 billion. If there are places that are not 
good investments, where we can make that list smaller, we 
certainly want to do that.
    Mr. Webster. Right. So you don't make a periodic list and 
give it to the Congress?
    General Semonite. It is my understanding we provide this 
list every year.
    Mr. Webster. You do.
    General Semonite. And if you need to, I will make a 
photocopy and get you the list in a couple days.
    Mr. Webster. I would love to have it.
    General Semonite. OK.
    Mr. Webster. Thank you. I yield back.
    Mr. Graves of Louisiana. Thank you, Mr. Webster. I next go 
to the gentlewoman from Connecticut, Ms. Esty, for 5 minutes.
    Ms. Esty. Well, thank you very much. Welcome, Mr. 
Secretary, welcome and thank you, Lieutenant General. We 
appreciate you being here all the way to the bitter end with 
those of us that are left here today.
    I wanted to let you know about and will certainly share 
with your staff, John Katko, who is not able to be with us here 
today, he and I co-led a group of 24 Democrats and 24 
Republicans called the Problem Solvers Group with a study on 
infrastructure. And water projects were an important part of 
that. And one of those pieces was about the need for us to 
adhere to taking dedicated funds--in this case the Harbor 
Maintenance Trust Fund--and ensuring it is spent for the 
purpose for which it is collected. This is important for 
several reasons.
    Number one, we actually have needs that are not being met. 
And our failure to meet those needs in U.S. ports is leading to 
a loss of business, to China and to Mexico, that endangers our 
national security by having more overland traffic, in 
particular coming up through Mexico, which leads, in my 
district, to issues with opioids, illegal guns, and other 
issues.
    So it has a national security component when we don't 
properly dredge our ports to a level that they can actually 
accommodate these larger ships. So it has real-world 
consequences, not just for the jobs which are important in 
those districts, but it has national security and health 
consequences for Americans. So I think we need to keep that in 
mind.
    And there is a broader question of the faith and trust of 
the American people. You know, people are willing to pay for 
gas tax and other things when they see their roads getting 
fixed. Shippers are willing to accept these fees. But when they 
don't see it being put to the use for which it is collected, 
then that undermines the faith of the American people, and 
their willingness to support the projects that you know are 
needed and that we know are needed.
    So I think it is very important, and I hope you will help 
us be advocates for respecting what those funds are used for. 
And so I just want to put that out there, because I think it is 
broader than just the issue, the important issue, of us not 
having adequately funded. It is also this question about the 
trust of people from whom we collect fees. And if we don't do 
that, we lose our ability to fund--pretty much all 
infrastructure is funded on that basis. And when we underfund 
some areas like the Highway Trust Fund and take out of the 
general fund, and when we raid from the Harbor Maintenance 
Trust Fund to put into the general fund, we are undercutting 
those core principles.
    So I--that is really more of a statement than any question, 
but I hope you know how seriously we take this, and I think 
there is a growing number of Members on both sides of the 
aisle, a lot of them in this committee, that are going to be 
fierce about defending that, and want you to know that, and 
your assistance in doing this, which I think has broader 
implications for the United States.
    I met yesterday with the National League of Cities, and 
they were in Washington to meet with Members of Congress, but 
also to launch and announce their commitment to a set of 
principles around resilient infrastructure, several things that 
are relevant for us in this room today.
    Number one, their focus is on flooding. These are mayors of 
big and small cities, Democrats and Republicans from all over 
the country. And all of them are struggling with and worried 
about flooding. They are worried about property loss, they are 
worried about loss of life. And there are vigorous debates--
and, actually, Eddie Bernice Johnson and I, we're bouncing back 
and forth between the Committee on Science, Space, and 
Technology and this committee, we can have the debates all day 
long about whether there is climate change and what is causing 
it, but you ask any mayor who is dealing with flooding, you ask 
the mayor of Meriden, Connecticut, in my district, my next-door 
city, they will say they don't care what the explanation is; 
they know it is happening. And it floods out the middle of 
their city, and has done it for decades, and it is getting 
worse.
    So I think it is going to be important. And they called on 
the need for actual funding and said it cannot be--and several 
of my colleagues have mentioned this. You know, Wall Street is 
not going to pay to deal with flooding projects in Meriden, 
Connecticut. And so I can tell you--and I will share with you 
the big city and small city mayors across this country who are 
looking to this committee, looking to the administration, and 
looking to the Corps to help them with dealing with these 
flooding problems, which have gotten worse because we haven't 
dealt with them, and now we have climate issues such as 50 
inches of rainfall falling in Houston.
    The last piece to flag for you is the need to use new and 
resilient materials and better planning processes. This is part 
of what the National League of Cities called for, but it is 
also part of our bipartisan proposal. So again I would like to 
follow up, but I see my time is already expired. But you should 
know there is intense interest at all levels of Government, 
bipartisan, for incorporation of new materials, better 
research, and better planning, so that we are making better use 
of taxpayer dollars on all of these, and would like to work 
closely with you.
    And I see, Lieutenant General, you are nodding your head 
vigorously, because you know this is something we need to fix 
together.
    Thank you, and I have nothing to yield back.
    Mr. Graves of Louisiana. Thank you. Let the record reflect 
he was nodding his head vigorously, so----
    [Laughter.]
    Ms. Esty. Exactly, he was. Indeed, I wasn't just saying 
that.
    Mr. Graves of Louisiana. Thank you. We are going to go to 
the gentleman from South Carolina, who I want to thank for 
hosting us on a good trip to Charleston to see what is going on 
with the port over there.
    Mr. Sanford, for 5 minutes.
    Mr. Sanford. Yes, sir. Mr. Chairman, since you bring up the 
port in Charleston, I will speak on the port in Charleston.
    As you all well know, it has kicked off the deepening 
project. The chairman was kind enough to come down and give it 
a direct look, and I appreciate his time in doing so.
    As you furthermore know, it is the first project to go 
through the SMART [Specific, Measurable, Attainable, Risk 
Informed, Timely] planning process, and then, by extension, to 
enter into the advanced project agreement. And inasmuch as the 
administration has signaled its desire to move into more on the 
way of public-private partnerships, and inasmuch as Charleston 
has been rather innovative on that front, I would, one, be 
curious at sort of a 30,000-foot level to get your take on what 
is indeed being done to enhance the odds of more projects being 
done, as was done in Charleston.
    But two, there is a downside to what happened here. And if 
you look at the benefit-cost ratio, in essence Charleston will 
be penalized for the amount of State money that has gone into 
the project.
    And so, the formula, as you look at updating things, I 
think needs to be updated so that other ports, whether it is--
well, not Georgia, but other places other than Georgia, are not 
penalized in the process. Because if, in fairness, a local port 
is able to work with leaders in the State and come up with 
substantial funds, I don't think you want to be penalizing that 
process as we try and expedite more throughput to get to the 
$95 or $100 billion that is outstanding.
    Thoughts on both of those fronts?
    Mr. James. Since I am not really familiar with how 
Charleston got from where it was to where it is, it is already 
being constructed, I am going to turn that----
    Mr. Sanford. Yes, sir?
    General Semonite. So, sir, I was the division commander 
when we started that process, and I was there 3 years. I was 
down there last week when we did the first dig. A great 
project.
    I think what the Corps has done--and I don't think you 
heard the beginning of my statement, but we have proposed a lot 
of different options to the administration on how to look at 
benefit-cost ratio. There is another formula called remaining 
benefit-cost ratio. Some of these have got to be justified 
every single year.
    So we are trying to propose some good, innovative solutions 
to try to both incentivize people to be able to step up and put 
money in. But at the same time we have got to be cautious 
because, as the Secretary said, there are some areas where you 
might not find someone with those funds. You don't want to 
necessarily penalize somebody else. So how do we find that 
balance? And those are some of the things the Corps is looking 
at recommending back to the administration.
    Mr. Sanford. Could you expand on that, though? I mean, in 
other words, because that gray area that we are talking about 
between, well, you don't want to penalize entities or places 
that wouldn't necessarily have those funds, but you do want to 
reward places that are innovative that do provide those funds.
    That gray area is ultimately what we are getting at, 
because, I mean, one could argue South Carolina is a relatively 
poor State, compared to a State like, let's say, Connecticut, 
on a per capita basis. They mustered pretty deep to come up 
with a couple hundred million and change, the number that they 
came up with.
    I mean it could be arguable that South Carolina is--again, 
on a per capita basis, relative to the rest of the Nation, not 
as well off. And therefore, they didn't have the money, but 
they came up with it because they said it is an absolute 
priority. How do we better, again, reward States or entities 
that do so?
    General Semonite. So I will keep this very short, sir, but 
the bottom line is, on the benefit-cost ratio, if in fact 
somebody puts additional funds in above their share, then in 
fact, should the Federal Government approve that those dollars 
should come off of the Federal share, to a degree.
    And then you can recalculate that particular one. That is 
not the way the current system works. Especially with not 
necessarily OMB, but as to how is it scored, as it goes through 
its way in the process.
    Mr. Sanford. So, indirectly, it hurts a place like 
Charleston, currently.
    General Semonite. These are things we are trying to 
recommend; some solutions on how to do this in an effort to be 
able to solicit the more incentivized funds coming in. I think 
it is right in line with where the administration is trying to 
go.
    As several people have said, we can't afford $95 billion of 
projects, so how do you find other people to bring that money 
to the table, and then incentivize them to do that?
    Mr. Sanford. And I would just close it out with I think 
that Charleston, at least to a degree, shows the way there. And 
I would just hope that, as we move forward with the project, 
that Charleston is not again penalized for what it did, in 
terms of local equity on that front.
    With that I would yield back, Mr. Chairman, thank you.
    Mr. Graves of Louisiana. Thank you. Thank you, Mr. Sanford. 
And I want to give a shout-out to Mr. Woodall for accommodating 
some complexity in the schedule. Thank you very much.
    Mr. Secretary--excuse me--Mr. Secretary, General, as you 
know, this hearing is related to the six Chief's Reports and 
the PACR [Post-Authorization Change Report] that had been 
issued since our last WRDA bill, the one enacted in 2016. Could 
you just briefly discuss any opposition to the Chief's Reports, 
the PACR that have been issued? Any concerns that have been 
raised?
    General Semonite. Sir, I personally signed all those, 
Chairman. I don't know of any specific issues. In any type of a 
project there are going to be different opinions, especially 
maybe an environmental opinion or perhaps different ways that 
they should have been formulated. But I think those are very, 
very solid projects, which are good investments to the Nation.
    I want to continue to also let you know that, between now 
and June--if, in fact, June is a potential cut-off--I expect to 
sign five more. And I also expect to be able to bring two more 
PACRs in. And we will give you that list, so you have that. In 
total----
    Mr. Graves of Louisiana. Please.
    General Semonite [continuing]. For the rest of the fiscal 
year, we see 11 more Chief's Reports coming. So it depends on 
when the cut-off is, Chairman, of when you have got to be able 
to do that. But we are trying to get those as fast as we can. 
But I see 11 more this fiscal year, 5 by the end of June. There 
are some disposition studies, as well, we are going to owe you. 
So that way we can take some things off the books.
    Mr. Graves of Louisiana. Great, thank you. And this isn't a 
leading question. Is it appropriate to say that the non-Federal 
sponsors in all cases of the six plus the PACR are on board 
with the reports?
    General Semonite. Exactly right, Chairman.
    Mr. Graves of Louisiana. Great, thank you. General, we also 
have some projects that are moving through the process under 
the section 203 authority. Could you lay out sort of how you 
see that evolving, and how that would be incorporated into the 
authorization process?
    General Semonite. I will try to do this quickly. We can 
give you more detail. We think there is merit in the section 
203. A good example is the State of Florida right now wants to 
be able to push a section 203 on an Everglades project. 
Initially, we went through with generic guidance to try to hit 
all section 203s. And unfortunately, just one size doesn't fit 
all. And we couldn't do it that way.
    So now we have very specific guidance. We want to be able 
to partner with whatever that entity is that is going to do the 
section 203. Because, at the end of the day, we want to make 
sure this is a good investment for the taxpayers, so then we 
are coaching and mentoring to a degree that entity to be able 
to continue to bring that section 203 back in. And we think 
that is working very aggressively. We are doing as much as we 
can possibly do to be able to make sure that the integrity and 
the engineering is in that section 203. Then the Secretary gets 
it, he will make those decisions, and then we will continue to 
support that.
    Mr. Graves of Louisiana. Great, thank you. And in addition 
to Florida, General, I want to highlight the fact that there is 
actually one in Louisiana----
    General Semonite. I have heard of one there, yes, sir.
    Mr. Graves of Louisiana [continuing]. That I have 
particular interest in, the Houma Navigation Canal, among 
others. And that is one of those projects that you and I have 
discussed, and I have discussed it with your predecessor and 
his predecessor and his predecessor and his predecessor and his 
predecessor.
    Suffice to say the timeline is unacceptable. So that 
deepening project is--or the lack of deepening project, the 
lack of urgency there, is resulting in us losing business not 
to Texas and Mississippi, but losing business to Asia, to South 
Korea, to China and other countries, having real impacts on 
real economic activity, real jobs, real people right here in 
America. And so I want to highlight that.
    And look, I had the chance to meet with you and Secretary 
James on a regular basis, and we are going to continue doing 
that. So rather than burning all my time, I am going to say one 
more time I think that the timeline for our water resource 
projects are completely unacceptable. I think the ratio of 
getting $1 to $2 billion in construction for a $100 billion 
program is ridiculous.
    I am going to remind you that we have seen, under the Obama 
administration, we have seen under the Trump administration 
where your mission is being carried out by other agencies 
because you are being circumvented by, again, by the Obama 
administration, by the Trump administration, and I think that 
goes back to the lack of efficiency in delivering some of these 
projects.
    And most importantly, these projects aren't luxuries. These 
projects, in many cases, mean life or death. Fifteen hundred of 
my fellow citizens died in Louisiana as a result of Hurricane 
Katrina. Fifteen hundred. I am never going to forget that, 
never. And I am not ever going to stop pushing you all to 
deliver these projects more efficiently.
    With that, I am going to yield to the gentleman from 
Georgia to take over the chair. I have got to run over to 
Secretary Zinke, but I wanted to thank you both very much for 
being here. I appreciate it.
    And Chairman Woodall is going to finish this thing up.
    Mr. Woodall [presiding]. Making time for one last 
questioner. Secretary James, we have not gotten a chance to 
meet before. I am Rob Woodall from Georgia, and I want the 
first words that you hear from me to be words of appreciation. 
They might not define our relationship forever going forward, 
but I wanted to define our relationship on day one.
    Lake Lanier, down in the great State of Georgia is in my 
district. And about the turn of the century--because you all 
were responsible for all the docks there on Lake Lanier, you 
put out guidance to say don't put your dishwashers out there on 
your dock, don't put the old ratty sofa out there, don't store 
a rotting lawnmower on your dock. I don't know what you were 
thinking about your good friends from Georgia there when you 
put out that guidance. But among the items on that list were no 
security cameras on your dock, no doubt with a nod towards 
privacy of folks who were on the lake.
    Well, we have had a spate of crime and vandalism, theft 
there on the lake, and we shared that with your local folks 
about a year ago today. It took them about 3 months to go 
through the public comment process, a visit with folks about 
how to make that better, and then rescind that prohibition on 
security cameras on docks so that our land owners, property 
owners, could feel safe and secure. I want to thank you for 
that. We have heard a lot about delays here today. I want you 
to know when I brought that concern to you you moved quickly, 
efficiently, brought everybody to the table, and came out with 
something that we can be enthusiastic about as a community. 
Thank you. Thank you for that.
    I also want to be able to define our relationship--I know 
you said you hadn't had a chance to focus a lot on ports in 
your first 4 weeks, so I can tell you everything you need to 
know about ports. It begins with Savannah and all comes down 
from there.
    The Savannah Harbor expansion project this committee 
authorized in 2014. It is the largest single container terminal 
in the country. It has been the fastest growing for the last 
decade. And in fact, our benefit-cost ratio has been rising 
throughout this time. It was 5.5 when we started, 7.3 today. 
Chairman Graves has worked with us on that, Chairman Shuster 
has worked with us on that. Certainly you have worked with us, 
as a Corps, and we are grateful for that.
    We fronted the project dollars out of Georgia. We put up 
the State match first, spent that money first, as we were going 
through the process: $266 million. We have also decided to put 
in an additional $35 million, going to bump up that required 
match by about 15 percent more, because this is so important, 
not just to us as a State, to us as a region, I would argue to 
us, as a country. But for a project that is due in 2021, we are 
having a tough time getting the money out of the 
administration; $49 million was in the President's request.
    I just want to put that on your radar screen. We are going 
to have to start having that conversation about how to be 
better partners with you. We once had the ability to get 
together as a committee, decide what our priorities were, and 
put that money in the Corps budget so that you all wouldn't 
have to come to folks whose constitutional responsibility is to 
appropriate funds and get fussed at for why we are not 
appropriating funds fast enough.
    But my question to you there, now that you know that the 
premier port project in the country is the Port of Savannah, 
and it has only been allocated $49 million in the President's 
budget request, do you anticipate some more flexibility to 
dedicate dollars to ports, to projects that are on a short 
build frame with a high benefit-cost ratio?
    Mr. James. Sir, I can't answer that question right now.
    Mr. Woodall. Well, if you didn't have a yes, I didn't want 
you to answer it anyway.
    Mr. James. Oh, I----
    Mr. Woodall. That was the only answer I was going to be 
excited about. So thank you for deferring.
    We need to find a way to take that off of our disagreement 
list and put it on our working together list. There is not a 
single constituency represented in the committee that is served 
by rising costs that come from delayed funding. I know we can 
crack that nut together, and I look forward to working with you 
on that.
    My last question also involves Lake Lanier. We, as you all 
know, have been working through a water resources challenge 
there in Metropolitan Atlanta. I only represent two counties. 
One of them is Forsyth County, on which the lake sits, and the 
county water supply is brought in through an intake that 
belongs to the city. The county has an allocation, but the city 
brings in the water through a city intake. So we are having 
that conversation now about how to get a county intake into 
Lake Lanier to access a county allocation of water. The dollar 
values of taxpayer savings vary, depending on who you talk to.
    But because we have been involved in litigation in Lake 
Lanier for so long, water control manuals notwithstanding, we 
recognize folks have not been in the permitting-handing-out 
business, what guidance can you give to me, just because we 
have a little privacy here in the committee room today, about 
the process for getting a county intake, a right of way 
approved for a county intake for what will be a county 
allocation of water that the State of Georgia requests?
    General Semonite. So, sir, I was a division commander down 
in Atlanta for 3 years. I know Lanier inside and out. And this 
is normally something that we can facilitate relatively 
straightforwardly. We have to do a special type of a permit, 
probably a section 408, but we have streamlined those, and we 
have to go through that. There is clearly a cost issue to work 
out.
    I think the challenge we are going to have here goes back 
to the litigation and to be able to make sure we talk about the 
water supply impact. And you know all of the details of the 
different parties that are in that litigation.
    So if, in fact, we think we are cleared to go green on 
that, then I think that is probably a relatively 
straightforward process. If in fact it goes back to now whether 
it is not so much the pipe, then the question is the water 
supply component. If, in fact, that is somehow wrapped back 
into an additional draw on Lake Lanier that is not in the water 
control manual--it is those kind of mechanics we have got to 
work out.
    I am not aware of exactly where we are at on that 
particular one, but Colonel Griffin is our district commander--
I am sorry, Mobile is the district the service is at. I will 
make sure that Colonel DeLapp comes and talks to you where we 
can and walk you through that.
    We want to help facilitate, wherever we can, counties to be 
able to do this in a more streamlined process.
    Mr. Woodall. I appreciate that, General. And finally, we 
are wonderful stewards of water resources in our part of the 
world. In fact, we have a $1 billion water treatment plant that 
sits there on Lake Lanier. We even pump water up over the 
Continental Divide, Mr. Secretary, in order to get it back into 
a basin that is in need.
    We don't get much credit for return flows these days, and 
much, of course, is a generous term I am using. We don't--there 
is no incentive today to be a good actor in that basin. And I 
know that is true of other places across the country. How it is 
we can work together to make sure we are incentivizing good 
behavior, no matter how many dollars we have, if we are using 
those dollars to maximize efficiency, I know we will all be 
better served. And so I look forward to working with you in 
your new capacity, and continuing to work with General Semonite 
on the return flow issue. I thank you, Mr. Secretary.
    The gentleman from California, Mr. LaMalfa.
    Mr. LaMalfa. Well, thank you, Mr. Chairman. I apologize for 
my sliding in at the very last second, but my previous 
committee took all of 2 hours for me to get to my point in it, 
so I appreciate everybody's indulgence and the rest of the 
members of the committee here, and importantly, our witnesses, 
too. So thank you.
    A very important issue in my district--I am not sure if Mr. 
Garamendi was in here earlier to provide--OK, very good, I am 
sure he did. On the Sutter Butte Flood Control Agency, a 
project in the Yuba-Sutter area of northern California on the 
Feather River, which--all the issues emanate from the Oroville 
Dam above there, which we don't probably have to recount much 
of the history of that with the crisis a year ago on the 
spillway there.
    So it all ties together. What we are talking about here on 
that project--again, to quickly review this--it is a 41-mile 
levee project that 36 miles out of the 41 have already been 
completed with basically zero cost to the Federal Government. 
What we need is a rapid new start to complete the last 5 miles.
    The Federal Government originally was obligated for up to 
$689 million at cost. They have pruned the price down, due to 
the good works at the local level and self-funding from a 
measure that the locals paid for on that. So we are down again 
to the last 5 miles. Locals are tapped out on the dollars. And 
so they are looking for that new start with only $49 million 
left to complete the final 5 miles of the 41-mile project, 
which--again, the original cost would have been $689 million 
and taken longer, and has been pruned down to $376 million, 
with the local work.
    So, if the designation can be made and given and the money 
transferred, at least just partially this year, but with the 
commitment to 2 years, we can be done--one and done, right? In 
2019. And I know the administration is looking for that, the 
administration, in its infrastructure, has been looking for 
that strong local participation.
    We have already front-loaded that with this project, 
stronger than, I think, the numbers that are even proposed in 
the ratios that the administration is talking about. So this 
would be, I think, a prime trophy moment for the administration 
and importantly, the folks that are living near to this 
program.
    Again, it is still vulnerable to floods, because the levees 
are weak. There is a lot of material in between the levees, as 
a result of that washout of the spillway above at Oroville Dam.
    So this would be a great partnership with Army Corps. As 
you know, the Army Corps helped pay for 20 percent of Oroville 
Dam originally, and owns the top 50 feet of airspace there for 
flood control purposes. So it is all tied together.
    And what I am asking for our gentlemen here, can we receive 
this designation, get this new start this year, as well as have 
a fight for the funding to keep the progress of the work going 
through the December 2019 completion?
    General Semonite. Sir, let me talk from the Corps' 
perspective, and I will let the Secretary jump in.
    We, first of all, look at this project, really, as a model. 
You have done a great job out there, just like you said, taking 
a massive amount of demand off the Federal Government here. We, 
from the Corps perspective, would think that this would compete 
very, very well in a fiscal year 2018 workplan. The Secretary 
is going to be the one who is going to have to rubberstamp that 
up through OMB to be able to get our workplan approved. But we 
are looking at, I think, a total of $75 million, of which the 
Federal share is about $50 million.
    So this is something to do that would be able to get this 
done, get those 4 miles complete. And I do think it is 
something that the Federal Government is getting a pretty good 
deal on this. And if we can help in any way, recommend the 
administration get this funded, I think this would be a pretty 
good investment.
    I will let the Secretary jump in, if need be.
    Mr. LaMalfa. I appreciate it.
    Mr. James. I don't have anything to add to that, other than 
the fact that it will be eligible for the 2018 workplan. And 
with its history, it would probably be real eligible.
    Mr. LaMalfa. OK, thank you. And both of you understand that 
the locals are tapped out on the property assessments and on 
that, and they have really carried it a long way. And you see 
that and understand it. I appreciate it.
    So, besides that, with, you know, the work that has been 
done and paying for it so far, what other things could the 
locals be doing to help make the case in front of you or for 
you, other than myself and Mr. Garamendi here in this committee 
and leading up to this point? What else could they be saying or 
doing?
    General Semonite. I don't think we need anything, sir. The 
colonels that are out there that understand this, we have been 
briefed on this several times. If there is something, we will 
certainly come back. But everything we have put in the 
workplan, I mean, we feel very, very solid on the engineering, 
the requirement back to the Nation, the justification of it. So 
I think where we are at, I think we have everything we need 
right now.
    Mr. LaMalfa. OK. Thank you for that. Again, I hate to be 
the guy that pesters and pesters and such. I don't know how 
that works, squeaky wheel in Government--or, as my father 
always told me, ``Well, he only asked one time.'' You know how 
that goes. But I know how it works a little more in the 
Government.
    But I do appreciate your attention to it and your listening 
to us here today, and I think this will, again, be a great 
success for all of us. So I look forward to inviting you out to 
a levee either now or in December 2019. So thank you all.
    Mr. Woodall. Gentlemen, I want to thank you both for--not 
just for being here, but for answering the call of public 
service. It seems like in this day and age, fewer and fewer 
folks are willing to answer that call, but the Nation depends 
on it. And I want to thank you both for what you do. It has 
been incredibly valuable for all of us on the committee.
    And unless any other Members have a concern, the committee 
stands adjourned. Thank you.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                           [all]
    
                                    
</pre></body></html>
